No. _______

In the

Supreme Court of the United States
⬧
STEPHEN B. MCKINNEY,
Petitioner,
V.

FELICIA HARKNESS DEAN, AS GUARDIAN AND
CONSERVATOR FOR AND ON BEHALF OF JANEL HARKNESS, AN
INCAPACITATED ADULT IS,
Respondent.
⬧
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Fourth Circuit
⬧
PETITION FOR WRIT OF CERTIORARI
⬧
Andrew F. Lindemann
Counsel of Record for Respondent
LINDEMANN & DAVIS, P.A.
Post Office Box 6923
Columbia, South Carolina 2960
(803) 881-8920
Email: andrew@ldlawsc.com

i

QUESTIONS PRESENTED FOR REVIEW

1.

Did the Circuit Court of Appeals err in failing
to apply the Parratt-Hudson doctrine to the
Respondent’s substantive due process claim?

2.

Did the Circuit Court of Appeals err in
denying Petitioner’s qualified immunity
defense
by
applying
the
“deliberate
indifference” standard rather than the “intent
to harm” standard and by finding that the
Petitioner’s
conduct
violated
“clearly
established” law in the absence of authority
that would have given the officer “fair notice”
that his conduct was unconstitutional?

ii

LIST OF PARTIES TO THE PROCEEDING

All the parties to the proceeding are set forth
fully in the caption.

iii

TABLE OF CONTENTS

Questions Presented for Review ...........................

i

List of Parties to the Proceeding..........................

ii

Table of Authorities..............................................

v

Opinions Below.....................................................

1

Jurisdiction ...........................................................

1

Constitutional Provision Involved .......................

2

Statement of the Case ..........................................

2

Reasons for Granting the Petition .......................

4

I. The Circuit Court of Appeals erred in
failing to apply the Parratt-Hudson
doctrine as a bar to Respondent’s
substantive due process claim...................

4

II. The Circuit Court of Appeals erred in
denying
Petitioner’s
qualified
immunity defense ......................................

12

A. The Circuit Court of Appeals erred
in
applying
the
“deliberate
indifference” standard rather than

iv

the “intent to harm” standard to
Petitioner’s conduct ..............................

13

B. The Circuit Court of Appeals erred
in finding Petitioner’s conduct
violated “clearly established” law
regarding a substantive due
process claim under the Fourteenth
Amendment ..........................................

16

Conclusion ............................................................

24

Appendix
United States Court of Appeals for the
Fourth Circuit Opinion, filed October
20, 2020 ....................................................

App. 1

United States Court of Appeals for the
Fourth Circuit Order Denying the
Petition for Rehearing and Rehearing
En Banc, filed December 11, 2020.........

App. 58

United States District Court - District of
South
Carolina
Order
of
the
Honorable Timothy M. Cain, dated
March 14, 2019......................................

App. 60

v

TABLE OF AUTHORITIES

Cases
Albright v. Oliver,
510 U.S. 266 (1994) ......................

6, 8, 9, 11, 17

Browder v. City of Albuquerque,
787 F.3d 1076 (10th Cir. 2015) ..

5, 9, 10, 21, 22

Cannon v. Taylor,
782 F. 2d 947 (11th Cir. 1986) .......................

15

City of Escondido v. Emmons,
139 S.Ct. 500 (2019) .......................................

17

Collins v. Harker Heights,
503 U.S. 115 (1992) ..........................................

8

County of Sacramento v. Lewis,
523 U.S. 833 (1998) ................................. passim
Daniel v. Williams,
474 U.S. 327 (1986) ......................................

4, 5

Doe ex rel. Johnson v. South Carolina
Department of Social Services,
597 F.3d 163 (4th Cir. 2010) .........................

19

vi

Green v. Post, 574 F.3d 1294
(10th Cir. 2009) ........................................

21, 22

Guertin v. State of Michigan,
924 F.3d 309 (6th Cir. 2019) ........................... 11
Harlow v. Fitzgerald,
457 U.S. 800 (1982) ...................................... 12, 18
Hogan v. Carter,
85 F.3d 1113 (4th Cir. 1996) ..........................

18

Hudson v. Palmer,
468 U.S. 517 (1984) ..........................................

5

Jones v. Sherrill,
827 F.2d 1102 (6th Cir. 1987) ........................

15

Kisela v. Hughes,
138 S.Ct. 1148 (2018) .....................................

22

Parratt v. Taylor,
451 U.S. 527 (1981) ................................. passim
Plumhoff v. Rickard,
572 U.S. 765 (2014) ........................................

20

Roach v. City of Fredericktown,
882 F.2d 294 (8th Cir. 1989) ..........................

15

vii

Sauers v. Borough of Nesquehoning,
905 F.3d 711 (3d Cir. 2018) .....................

22, 23

Sitzes v. City of West Memphis,
606 F.3d 461 (8th Cir. 2010) .........................
Swanson v. Powers,
937 F.2d 965 (4th Cir. 1991) ....................

14

18, 19

Temkin v. Frederick County Commissioners,
945 F.2d 716 (4th Cir. 1991) .................... 15, 16
Terrell v. Larson,
396 F.3d 975 (8th Cir. 2005) ....................

14, 15

Unified School District No. 1 v. Redding,
557 U.S. 364 (2009) ............................................ 19
Walton v. Salter,
547 F.2d 824 (5th Cir. 1976) ..........................

15

Williams v. Strickland,
917 F.3d 763 (4th Cir. 2019) ..........................

21

Wilson v. Layne,
526 U.S. 603 (1999) ............................................ 18
Zinermon v. Burch,
494 U.S. 113 (1990) ....................................

5, 10

viii

Statutes
28 U.S.C. § 1254(1) ................................................

1

42 U.S.C. § 1983 ........................................... passim

1

Petitioner Stephen B. McKinney respectfully
petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Fourth Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fourth Circuit is reported at 976 F.3d 407
(4th Cir. 2020), and is included at App. 1 through
App. 57.
The order denying the petition for
rehearing en banc is included at App. 58 through 59
The opinion of the district court is unpublished and
is included at App. 60 through App. 80.

JURISDICTION

The Fourth Circuit Court of Appeals filed its
decision on October 2, 2020. (App. 1-57). Thereafter
on October 29, 2020, after obtaining an extension
through October 30, 2020, the Petitioners filed a
timely Petition for Panel Rehearing and Rehearing
En Banc. The Fourth Circuit Court of Appeals
entered an order denying Petitioner’s petition for
rehearing en banc on December 11, 2020. (App. 5859). This Court has jurisdiction under 28 U.S.C. §
1254(1) to review the circuit court’s decision on a
writ of certiorari.

2

CONSTITUTIONAL PROVISION INVOLVED
Section 1 of the Fourteenth Amendment provides
in pertinent part as follows: “All persons born or
naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States
and of the state wherein they reside. No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.”

STATEMENT OF THE CASE
This appeal arises from a motor vehicle accident
occurring on October 19, 2016.
On that date,
Petitioner Steven “Brent” McKinney, who was a
deputy sheriff with the Anderson County Sheriff’s
Office, was on patrol when another deputy requested
assistance during a traffic stop. The shift supervisor
issued a “Code 3” emergency. Petitioner activated
his siren and lights and proceeded in excess of the
posted speed limit towards the deputy needing
assistance.
The shift supervisor subsequently
cancelled the “Code 3” but advised deputies,
Petitioner included, to proceed towards the other
deputy. Petitioner acknowledged the cancellation of
the “Code 3,” deactivated his lights and siren, and

3
began to reduce speed. Shortly thereafter, Petitioner
lost control of his vehicle in a curve, crossed over the
center line, and collided with a vehicle driven by
Janel Harkness. The parties dispute the amount of
time that transpired from the cancellation of the
“Code 3” until the collision. Respondent alleges that
at least two minutes passed, and Petitioner avers
that 41 seconds elapsed.
In her Complaint, Respondent alleges a violation
of her right to substantive due process under the
Fourteenth Amendment.1 Petitioner removed the
case to federal court and moved for summary
judgment asserting that he is entitled to qualified
immunity because Respondent failed to state a claim
for a violation of substantive due process and the
applicable law is not clearly established.
By Order dated March 14, 2019, District Judge
Timothy M. Cain denied Petitioner’s motion for
summary judgment finding (1) that a reasonable
jury could conclude that Petitioner abridged
Respondent’s substantive due process rights; (2) that
Petitioner is not entitled to qualified immunity; and
(3) that the Parratt-Hudson doctrine does not
preclude Respondent’s federal cause of action. (App.
60-80).
The Complaint also includes state law claims for
negligence/gross negligence brought under the South Carolina
Tort Claims Act against the Anderson County Sheriff’s Office
and the Anderson County Sheriff. The state law claims have
been settled or were otherwise disposed of by the district court
and are not at issue in this appeal.
1

4
By published opinion filed on October 2, 2020, a
panel of the Fourth Circuit Court of Appeals
affirmed the district court in a 2-1 decision. The
majority ruled that Petitioner was not entitled to
qualified immunity because a reasonable jury could
conclude that Petitioner violated Harkness’s clearly
established substantive due process rights. The
panel also ruled that the Parratt-Hudson doctrine
does not bar Respondent’s substantive due process
claim.
(App 7).
Judge Richardson issued a
dissenting opinion as to the qualified immunity
defense. A petition for rehearing en banc was also
denied. (App. 58-59).

REASONS FOR GRANTING THE PETITION
I.

The Circuit Court of Appeals erred in
failing to apply the Parratt-Hudson
doctrine as a bar to Respondent’s
substantive due process claim.

The Petitioner contends that Respondent’s due
process claim is barred by application of the ParrattHudson doctrine, which provides that a state actor’s
random and unauthorized deprivation of a protected
due process interest cannot be challenged under §
1983 if the State provides an adequate postdeprivation remedy.2 See Parratt v. Taylor, 451 U.S.
There is no dispute that Respondent has received a state
law remedy pursuant to the South Carolina Tort Claims Act by
way of a settlement reached on her state law claims.
2

5
527 (1981), overruled in part on other grounds,
Daniel v. Williams, 474 U.S. 327 (1986); Hudson v.
Palmer, 468 U.S. 517 (1984). Citing to Zinermon v.
Burch, 494 U.S. 113 (1990), the Fourth Circuit
incorrectly found that the Parratt-Hudson doctrine
applies only to procedural due process claims and
does not bar Respondent’s substantive due process
claim.3
Citing to Zinermon v. Burch, 494 U.S. 113 (1990),
the circuit court incorrectly believed that this Court
has definitively held that the Parratt-Hudson
doctrine applies only to procedural due process
claims. However, as Judge Gorsuch (now Supreme
Court Justice Gorsuch) wrote in his concurrence in
Browder v. City of Albuquerque, 787 F.3d 1076 (10th
Cir. 2015), “the suggestion along those lines [in
Zinermon] came in dicta and several reasons exist to
doubt it.” 787 F.3d at 1085. Among his reasons,
Justice Gorsuch points to a footnote in County of
Sacramento v. Lewis, 523 U.S. 833 (1998), where this
Court reserved the question of whether the ParrattHudson doctrine applies to substantive due process
claims, which in Justice Gorsuch’s view “confirms
that the issue remains a live and open one.” Id.,
citing Lewis, 523 U.S. at 840, n.4. From a timing
standpoint, Lewis was decided after Zinermon.
Thus, the footnote in Lewis is illogical if Zinermon is
to be read to limit the Parratt-Hudson doctrine only
to procedural due process claims.
Judge Richardson did not address the Parratt-Hudson
doctrine in his dissent.
3

6
This Court in Lewis, in fact, cites to the
concurrence by Justice Kennedy (joined by Justice
Thomas) in Albright v. Oliver, 510 U.S. 266 (1994).
The concurrence, which was part of a plurality
decision, is very instructive. Citing Parratt and
Hudson, Justice Kennedy explained that “our
precedents make clear that a state actor’s random
and unauthorized deprivation of [property or liberty
interests] cannot be challenged under 42 U.S.C. §
1983 so long as the State provides an adequate post
deprivation remedy.” 510 U.S. at 284. Justice
Kennedy explained:
The commonsense teaching of Parratt is that
some questions of property, contract, and tort
law are best resolved by state legal systems
without resort to the federal courts, even when
a state actor is the alleged wrongdoer. As we
explained in Parratt, the contrary approach
“would almost necessarily result in turning
every alleged injury which may have been
inflicted by a state official acting under ‘color
of law’ into a violation of the Fourteenth
Amendment cognizable under § 1983 ....
Presumably, under this rationale any party
who is involved in nothing more than an
automobile accident with a state official could
allege a constitutional violation under § 1983.
Such reasoning would make of the Fourteenth
Amendment a font of tort law to be
superimposed upon whatever systems may
already be administered by the States.”

7
Id. (Emphasis added). Based thereon, Justice
Kennedy concluded that “[t]he Parratt principle
respects the delicate balance between state and
federal courts and comports with the design of §
1983, a statute that reinforces a legal tradition in
which protection for persons and their rights is
afforded by the common law and the laws of the
States, as well as by the Constitution.” Id.
As Justice Kennedy further explains, which is
disregarded in the circuit court’s analysis, the
application of the Parratt-Hudson doctrine to
substantive due process claims would be limited to
the “ordinary case where an injury has been caused
not by a state law, policy, or procedure, but by a
random and unauthorized act that can be remedied
by state law.” Id. at 285. As Justice Kennedy points
out, “there is no basis for intervention under § 1983,
at least in a suit based on ‘the Due Process Clause of
the Fourteenth Amendment simpliciter.” Id. Justice
Kennedy recognized that Illinois state law provides a
tort remedy for malicious prosecution, and given
that remedy, “there is neither need or legitimacy to
invoke § 1983 in this case.” Id. at 285-286.
Under this sound reasoning, the Parratt-Hudson
doctrine would apply only to those substantive due
process claims, like the present case, where the
conduct is not based on or consistent with state law
or policy, but rather a random and unauthorized act
-- in essence, the breach of a duty of care established
by tort law. In that instance, a remedy is available
under state law, and there is no need for a

8
concurrent federal remedy -- which is the very
essence of the Parratt-Hudson doctrine. The circuit
court’s analysis also fails to consider that this Court
has consistently instructed that the concept of
substantive due process is a narrow one and to be
applied reluctantly and sparingly. In Albright, this
Court writes: “As a general matter, the Court has
always been reluctant to expand the concept of
substantive due process because the guideposts for
responsible decision-making in this unchartered
area are scarce and open-ended. The protections of
substantive due process have for the most part been
accorded to matters relating to marriage, family,
procreation, and the right to bodily integrity.” Id. at
271-272. See also Collins v. Harker Heights, 503
U.S. 115 (1992). Thus, consistent with that judicial
reluctance and narrow application of substantive
due process, the wisdom of Justice Kennedy in his
concurrence in Albright rings true. Substantive due
process need not apply where the injury resulting
from a random and unauthorized act by a
governmental actor can be and is remedied under
state law.
This case represents an excellent example of this
and thus is an appropriate candidate for a writ of
certiorari. Respondent did not allege nor show that
she was harmed by the application of state law or
policy. Instead, she was allegedly harmed by the
random and unauthorized conduct -- the gross
negligence -- of Petitioner in failing to slow his
vehicle sufficiently after the “Code 3” was
discontinued and ultimately lost control of his

9
vehicle in a curve. Respondent brought and settled
her claim for negligence/gross negligence under state
law. Accordingly, in the words of Justice Kennedy,
“there is neither need or legitimacy to invoke § 1983
in this case.” Albright, 510 U.S. at 285-286.
This rationale from the Albright concurrence was
also addressed at length by the Tenth Circuit in the
case of Browder v. City of Albuquerque, 787 F.3d
1076 (10th Cir. 2015). In that case, Justice Gorsuch
wrote both the majority and concurring opinions,
and both opinions refer to the fact that the
defendant law enforcement officer had “forfeited” a
viable Parratt-Hudson argument.4 Both opinions
strongly argue that a plaintiff is required “to show
that state law supplies no adequate remedial course
before proceeding in federal court.” Id. at 1081.
Unable to apply the Parratt-Hudson doctrine due to
the plaintiff’s failure to argue that defense, Justice
Gorsuch devotes the entire concurrence to the
Parratt-Hudson argument, stating that:
[A]fter all, there’s no need to turn federal
courts into common law courts and imagine a
whole new tort jurisprudence under the rubric
of § 1983 and the Constitution in order to
vindicate fundamental rights when we have
state courts ready and willing to vindicate
In fact, the majority opinion found that the officer had
forgone “perhaps the most significant” rejoinder by not
presenting a Parratt argument. Browder, 787 F.3d at 1081.
4

10
those same rights using a deep and rich
common law that’s been battle tested through
the centuries.
Id. at 1084. Justice Gorsuch recognizes that “when a
rogue state official acting in defiance of state law
causes a constitutional injury there’s every reason to
suppose an established state law tort remedy would
do as much as a novel federal remedy might and no
reason exists to duplicate the effort.” Id.
In sum, the majority opinion in Browder, which
was also written by Justice Gorsuch, as does his
concurrence, makes it very clear that the Tenth
Circuit would have ruled the Parratt-Hudson
doctrine as a bar to that substantive due process
claim, if the defense had been asserted and not
waived. He ultimately rejects the notion that the
Parratt-Hudson doctrine applies to only procedural
due process claims but not substantive due process
claims. Justice Gorsuch wrote:
Indeed, it’s hard to identify a principled
justification for extending Parratt piecemeal to
procedural due process claims rather than
wholesale to all due process claims. Zinermon
observed that a substantive due process
violation is complete upon a deprivation while
a procedural due process violation requires us
to wait and see what process the state
provides. But it’s unclear why that distinction
makes a difference when Parratt’s logic cuts
across both kinds of cases, asking in all events

11
whether there’s a need for federal intervention
or whether state remedial processes might do
just as well.
Id. at 1085.
The applicability of the Parratt-Hudson doctrine
to a substantive due process claim was more recently
addressed in the Sixth Circuit case of Guertin v.
State of Michigan, 924 F.3d 309 (6th Cir. 2019).
Judge Sutton issued a concurring opinion on a denial
of a petition for rehearing en banc. He noted that
there was a companion case pending in state court
seeking a remedy for the same harm under state
constitutional and tort theories. Citing Parratt,
Hudson, and the Kennedy concurrence in Albright,
Judge Sutton wrote:
[I]f the underlying state and federal claims in
today’s case turned on process in its
conventional sense, the federal courts
presumably would stay their hand to
determine what process the State provided. If
that approach makes sense in the context of
procedural due process, it makes doubly good
sense in the context of substantive due process.
Otherwise, we give claimants more leeway
when they raise the most inventive of the two
claims, rewarding them for asking us to do
more of what we should be doing less.

12
Id. at 314. He further noted that “[t]his is not a new
concept. For some time, the federal courts tried to
avoid federal constitutional claims when they can.”
Id.
As stated in Lewis, this remains an open question
for this Court. Therefore, the Court is respectfully
requested to grant certiorari on this issue, apply the
Parratt-Hudson doctrine to a substantive due
process claim, and dismiss Respondent’s § 1983
claim based upon the availability of an adequate
state law remedy which she has indeed already
received.
II.

The Circuit Court of Appeals erred in
denying Petitioner’s qualified immunity
defense.

Qualified immunity shields governmental actors
from suit unless their conduct violated “clearly
established statutory or constitutional rights of
which a reasonable person would have known.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). As
recognized by Judge Richardson in his dissenting
opinion, the Fourth Circuit majority “ignor[ed] the
Supreme Court’s consistent admonition that it really
must be clearly established that the Officer’s
particular conduct was prohibited by the
Constitution.”
(App. 28).
Because the Fourth
Circuit should have applied the “intent to harm”
standard rather than “deliberate indifference” to
Petitioner’s conduct and because the governing
constitutional standards were not clearly established

13
prior to the incident, Petitioner is entitled to
qualified immunity. Based thereon, Petitioner seeks
a writ of certiorari and a reversal of the denial of
qualified immunity by the district court, as affirmed
by the Fourth Circuit below.
A. The Circuit Court of Appeals erred in
applying the “deliberate indifference”
standard rather than the “intent to
harm”
standard
to
Petitioner’s
conduct.
In the case at bar, the parties agree that the
“shocks the conscience” standard set forth in County
of Sacramento v. Lewis, 523 U.S. 833 (1998), applies
to § 1983 claims alleging violation of substantive due
process based on alleged police driving. The parties
disagree, however, as to the level of culpability that
is required for Petitioner’s conduct to be seen as
“conscience-shocking.” As stated by the majority in
the court below, “[a] determination as to which of
these standards of culpability -- ‘intent to harm’ or
‘deliberate indifference’ -- applies requires ‘an exact
analysis of context and circumstances before any
abuse of power is condemned as conscience
shocking.’”
(App. 10).
The majority also
acknowledges that “the intent-to-harm standard
most clearly applies in rapidly evolving, fluid, and
dangerous situations which preclude the luxury of
calm and reflective deliberation,” including “officers
responding to an emergency call.” (App. 12). In
contrast, the deliberate indifference standard applies
“when an officer is able to make unhurried

14
judgments with time to deliberate, such as in the
case of a non-emergency.” (App. 13).
The evidence presented to the district court
shows that, at the time of the accident, Petitioner
was on duty, was responding to an assistance call
from another deputy that initially caused the
supervisor to issue a “Code 3” emergency, and the
situation was rapidly evolving. The unique situation
with which Petitioner was presented was more akin
to a high-speed chase, wherein his decisions were
necessarily made “in haste, under pressure, and ...
without the luxury of a second chance” than a
situation that allowed sufficient time for actual
deliberation. See Lewis, 523 U.S. at 853. See also
Sitzes v. City of West Memphis, 606 F.3d 461 (8th
Cir. 2010) (substantive due process liability turns on
the intent of the government actor).5 Lewis makes it
clear that the intent-to-harm standard is
appropriate for cases, as here, where “unforeseen
circumstances
demand
an
officer’s
instant
judgment.” Lewis, 523 U.S. at 853. As stated by the
Eighth Circuit in Terrell v. Larson, 396 F.3d 975 (8th
Cir. 2005), “to our knowledge every circuit to
consider the issue has applied the Lewis intent-toharm standard to those myriad situations involving

The “intent to harm” standard in Lewis is not limited to
high-speed police driving aimed at apprehending a suspected
offender. See Terrell v. Larson, 396 F.3d 975, 978 (8th Cir.
2005). Respondent, in her filings below, conceded that Lewis is
not limited to pursuit cases, and that the intent to harm
standard is applicable to “other types of emergencies.”
5

15
law enforcement and government workers deployed
in emergency situations.” Id. at 979.
As discussed by Judge Richardson in his dissent,
the most analogous Fourth Circuit case existing at
the time of the accident is Temkin v. Frederick
County Commissioners, 945 F.2d 716 (4th Cir. 1991),
where the court “rejected the very deliberateindifference standard that the majority seeks to
apply.” (App. 43). “Temkin alone should preclude
finding that it is clearly established that the
deliberate-indifference standard applies here.” (App.
43). Moreover, the four cases cited by the Fourth
Circuit in Temkin present a clear window into the
type of conduct that does not “rise to the level of
conduct which would sustain a claim under section
1983.” Id. at 721. In particular, the court referenced
the Eleventh Circuit case of Cannon v. Taylor, 782
F.2d 947 (11th Cir. 1986), which held that “[a]
person injured in an automobile accident caused by
the negligent, or even grossly negligent, operation of
a motor vehicle by a policeman acting in the line of
duty has no section 1983 cause of action for violation
of a federal right.” Id. at 950. (Emphasis added).
The three other cases relied upon by the Fourth
Circuit in Temkin are Roach v. City of
Fredericktown, 882 F.2d 294 (8th Cir. 1989), Jones v.
Sherrill, 827 F.2d 1102 (6th Cir. 1987), and Walton
v. Salter, 547 F.2d 824 (5th Cir. 1976) (“a showing of
an isolated case of negligent operation of a police car
would not state a claim under § 1983”). The court
compared the facts in those cases to the particular
facts in Temkin to conclude that the officers’ conduct

16
did not rise to the level of a violation of substantive
due process. Id. F.2d at 723.
Based on Temkin, and as explained further by
Judge Richardson’s dissent, the standard of
culpability in this case should be intent-to-harm and
the 2-1 decision to apply deliberate indifference
should be reversed. Moreover, applying the intentto-harm standard, Petitioner is entitled to summary
judgment because there has been no argument and
no evidence presented that his actions meet that
standard.
B.

The Circuit Court of Appeals erred in
finding Petitioner’s conduct violated
“clearly established” law regarding a
substantive due process claim under
the Fourteenth Amendment.

In addition to applying the incorrect standard of
culpability, the majority erroneously found that
Petitioner’s conduct violated clearly established law.6
To ensure that “every reasonable official” would
understand the illegality of the conduct, “the clearly
established right must be defined with specificity.”

As aptly observed by Judge Richardson in his dissent,
“[t]he governing constitutional standards are not clearly
established. And the caselaw’s application to the hurried,
discrete, and torn conduct underlying this case is also not
clearly established. Yet the majority ignored this compounded
uncertainty to forge new law that it then finds had been ‘clearly
established.’” (App. 29).
6

17
City of Escondido v. Emmons, 139 S.Ct. 500, 503
(2019).
As Judge Richardson emphasizes in his dissent,
“the required specificity is especially important when
the claim depends on substantive due process, which
is even more unclear generally and offers even less
guidance in particular circumstances than Fourth
Amendment jurisprudence.” (App. 33). As discussed
above, this Court has routinely expressed
“reluctan[ce] to expand the concept of substantive
due process because the guideposts for responsible
decision-making in this unchartered area are scarce
and open-ended.” Albright v. Oliver, 510 U.S. 266,
271-272 (1994).
Thus, the analysis of “clearly
established law” should be particularly discerning
and cautious when a court is examining a
substantive due process claim. Judge Richardson
recognizes that “the lack of clarity surrounding
substantive due process -- and the Court’s
admonitions in this area -- cautions us to seek cases
that address the specific circumstances at hand to
find clearly established law.” (App. 34).
The case law is anything but clear when applied
to the particular facts herein. In fact, both the
district court opinion and the Fourth Circuit
majority opinion acknowledge that there is little
precedent for the courts to rely upon. As noted by
the majority, “the parties concede that no other court
decisions have addressed the factual circumstances
upon which we must make a determination.” (App.
20).

18

In applying the second prong of the qualified
immunity analysis, this Court has directed that courts
focus on the state of the law “at the time [the] action
occurred” because “[i]f the law at that time was not
clearly established, an official could not be reasonably
expected to anticipate subsequent legal developments,
nor could he fairly be said to ‘know’ that the law
forbade conduct not previously identified as unlawful.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
Similarly, in Wilson v. Layne, 526 U.S. 603 (1999),
this Court held that state officials “cannot have been
expected to predict the future course of constitutional
law.” 526 U.S. at 617.
As a corollary, this Court has further explained
and recognized that “[i]f judges thus disagree on a
constitutional question, it is unfair to subject police to
money damages for picking the losing side of the
controversy.” Wilson v. Layne, 526 U.S. 603, 618
(1999).7 Moreover, in 2009, this Court made the
7

The Fourth Circuit likewise has observed as follows:

Although there might be instances where a
reasonable jurist, but not a reasonable official, would
consider particular conduct violative of clearly established
law, if a reasonable jurist would not have viewed the
defendant’s action as violative of clearly established law,
then it necessarily follows that the reasonable officer
likewise would not have viewed that conduct as violative
of clearly established law.
Hogan v. Carter, 85 F.3d 1113, 1116 (4th Cir. 1996). See
also, Swanson v. Powers, 937 F.2d 965, 968 (4th Cir. 1991) (“[i]f

19
following observations in the case of Safford Unified
School District No. 1 v. Redding, 557 U.S. 364 (2009):
We think these differences of opinion from our
own are substantial enough to require
immunity for the school officials in this case.
We would not suggest that entitlement to
qualified immunity is the guaranteed product
of disuniform views of the law in the other
federal, or state, courts, and the fact that a
single judge, or even a group of judges,
disagrees about the contours of a right does
not automatically render the law unclear if we
have been clear. That said, however, the cases
viewing school strip searches differently from
the way we see them are numerous enough,
with well-reasoned majority and dissenting
opinions, to counsel doubt that we were
sufficiently clear in the prior statement of law.
We conclude that qualified immunity is
warranted.
Id. at 378-379.
In sum, given the absence of existing precedent,
and the fact that three learned judges of the circuit
judges thus disagree on a constitutional question, it is unfair to
subject police to money damages for picking the losing side of
the controversy”); Doe ex rel. Johnson v. South Carolina
Department of Social Services, 597 F.3d 163, 176-177 (4th Cir.
2010) (same).

20
court cannot even agree as to the constitutional
question presented, a reasonable law enforcement
officer cannot be said to be on “fair notice” that his
conduct
as
alleged
in
this
action
was
unconstitutional.
Moreover, even if it was “clearly established” that
“deliberate indifference” is the applicable standard
to be applied herein, which is disputed, the law is
not clearly established that Petitioner’s actions met
that standard.8 As this Court has held, “a defendant
cannot be said to have violated a clearly established
right unless the right’s contours were sufficiently
definite that any reasonable official in the
defendant’s shoes would have understood that he
was violating it.” Plumhoff v. Rickard, 572 U.S. 765,
778-779 (2014). “In other words, existing precedent
must have placed the statutory or constitutional
question confronted by the official “‘beyond debate.’”
Id. at 779.
As observed by Judge Richardson, no Supreme
Court or Fourth Circuit case “has imposed liability
in an even remotely similar circumstance.” (App.
51). In addition, the majority opinion fails to show
that a “robust consensus of persuasive authority”
“Deliberate indifference that shocks in one environment
may not be so patently egregious in another, and our concern
with preserving the constitutional proportions of substantive
due process demands an exact analysis of circumstances before
any abuse of power is condemned as conscience shocking.”
Lewis, 523 U.S. at 850.
8

21
exists in other circuits that would have given
Petitioner “fair warning that [his] conduct, under the
circumstances,
was
wrongful.”
Williams
v.
Strickland, 917 F.3d 763, 769 (4th Cir. 2019).
Certainly, there is no authority establishing the
unconstitutionality of Petitioner’s conduct is “beyond
debate.”
Judge Richardson recognizes that “[t]he only
decision brought to [the panel’s] attention that found
that the officer violated clearly established law in
even remotely similar circumstances -- then-Judge
Gorsuch’s decision for the Tenth Circuit in Browder
-- is distinguishable along several fronts. The most
obvious distinction is that the officer in that case
was ‘on no one’s business but his own,’ while the
officer here was engaged in an on-duty response to
another officer’s call for assistance.” (App. 52). The
extreme facts found in Browder are certainly not
analogous to the facts herein.9
In finding the law to be clearly established, the
majority also relies on Green v. Post, 574 F.3d 1294
(10th Cir. 2009); however, in that case, the Tenth
Circuit actually found no constitutional violation
even though the officer, while in pursuit of “a vehicle
suspected of driving away from a gas station without
The Tenth Circuit specifically stated that this is a
“murky area” and that “the line that separates executive
actions that are ‘reasonably justified’ in the service of a
‘legitimate governmental objective’ and those that are
‘arbitrary or conscience shocking’ appears anything but clearly
defined.” Browder, 787 F.3d at 1080.
9

22
paying for approximately $30.00 worth of gas,”
driving a patrol vehicle without lights or sirens,
struck another vehicle at “a high level of speed” in
an intersection where the light was turning yellow.
574 F.3d at 1296-97. Unlike Petitioner, who was
responding to a call for officer assistance that began
as a “Code 3” emergency, the officer in Green
admitted that he was not in an emergency situation
but merely trying “to catch up to the suspected
violator of the law, to verify that it was the vehicle
involved in the theft of the gas.” Id. It is difficult to
fathom how Green can be cited as support for a
finding of deliberate indifference against Petitioner,
when the Tenth Circuit found that the officer’s much
less justifiable conduct did not even meet that
standard.
Likewise, the only other case cited by the
majority, Sauers v. Borough of Nesquehoning, 905
F.3d 711 (3d Cir. 2018), cannot be used to find that
the law was “clearly established” at the time of the
incident herein. Sauers was not decided until after
the incident. This is no different than what this
Court addressed in Kisela v. Hughes, 138 S.Ct. 1148
(2018), where this Court criticized the Ninth Circuit
for relying on an opinion that postdated the incident
as “the most analogous Ninth Circuit case” in its
analysis of “clearly established” law. This Court
observed that the postdated opinion “could not have
given fair notice to [the officer] because a reasonable
officer is not required to foresee judicial decisions
that do not yet exist.” Id. at 1154. Moreover, in
Sauers, the Third Circuit actually granted qualified

23
immunity to the officer. Notably, the majority cites
no cases, and Petitioner is aware of none, decided
between the date of the accident in Sauers (May
2014) and the date of the accident herein (October
2016) that “clearly established” the relevant law as
applied to the particular facts of this case.
In sum, the cases cited by the majority as “clearly
establishing” the constitutional rights of which a
reasonable officer in Petitioner’s position would have
known do not, in fact, do so. The unconstitutionality
of his conduct at issue is not “beyond debate.” In
light of the strong dissent from Judge Richardson
and failure by the majority to correctly apply this
Court’s precedent in its application of qualified
immunity principles, a writ of certiorari is
warranted on this issue as well.

24
CONCLUSION
For the above reasons, a writ of certiorari
should be issued to review the judgment and opinion
of the Court of Appeals for the Fourth Circuit.
Respectfully Submitted,
Andrew F. Lindemann
Counsel of Record for Respondent
LINDEMANN & DAVIS, P.A.
Post Office Box 6923
Columbia, South Carolina 29260
(803) 881-8920
Email: andrew@ldlawsc.com
James W. Logan, Jr.
LOGAN & JOLLY, LLP
Post Office Box 259
Anderson, South Carolina 29622
(864) 226-1910
Email: logan@loganandjolly.com
March 11, 2021

App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_______________
No. 19–1383
_______________
FELICIA HARKNESS DEAN, as Guardian
and Conservator for and on behalf of Janel
Harkness, an incapacitated adult,
Plaintiff – Appellee,
v.
STEPHEN B. MCKINNEY,
Defendant – Appellant,
and
CHAD MCBRIDE, in his official capacity as the
Sheriff of Anderson County Sheriff’s Office;
THE ANDERSON COUNTY SHERIFF’S
OFFICE,
Defendants.

App. 2
_______________
Appeal from the United States District Court for the
District of South Carolina, at Anderson. Timothy M.
Cain, District Judge. (8:17–cv–02088–TMC)
_______________
Argued: January 31, 2020
Decided: October 2, 2020
_______________
Before GREGORY, Chief Judge,
RICHARDSON, Circuit Judges.
_______________

MOTZ,

and

Affirmed by published opinion. Chief Judge Gregory
wrote the opinion, in which Judge Motz joined. Judge
Richardson wrote a dissenting opinion.
_______________
ARGUED: James William Logan, Jr., LOGAN &
JOLLY, LLP, Anderson, South Carolina, for
Appellant.
Jordan
Christopher
Calloway,
MCGOWAN, HOOD & FELDER, LLC, Rock Hill,
South Carolina, for Appellee. ON BRIEF: Stacey
Todd Coffee, LOGAN & JOLLY, LLP, Anderson,
South Carolina, for Appellant. Robert V. Phillips,
MCGOWAN, HOOD & FELDER, LLC, Rock Hill,
South Carolina, for Appellee.
_______________

App. 3
GREGORY, Chief Judge:
This civil action arises out of claims for
injuries suffered in an automobile collision. Stephen
B. McKinney appeals the district court’s denial of his
motion for summary judgment based on qualified
immunity. For the reasons stated below, we affirm
the decision of the district court.
I.
On October 19, 2016, Anderson County, South
Carolina Deputy Sheriff Stephen B. “Brent”
McKinney was on patrol in his government-owned
SUV. At approximately 10:30 p.m., fellow Deputy
Sheriff Kenneth Lollis radioed a request for
assistance with a traffic stop. Believing that Lollis’s
voice sounded as if he was “shaken,” J.A. 149, Shift
Supervisor Lieutenant Scott Hamby issued a “Code
3” for available officers to assist Lollis. Per Sheriff’s
Office policy governing “Emergency Vehicle
Operations” and state law,1 a “Code 3” represents an
1 South Carolina Code § 56-5-760 provides in part: (A) The
driver of an authorized emergency vehicle, when responding to
an emergency call or when in the pursuit of an actual or
suspected violator of the law or when responding to but not
upon returning from a fire alarm, may exercise the privileges
set forth in this section, but subject to the conditions of this
section.

(B) The driver of an authorized emergency vehicle may . . .
(3) exceed the maximum speed limit if he does not endanger life
or property . . . .

App. 4
“emergency response” where “human life or safety is
threatened.” J.A. 75. A Code 3 is the only time
officers are permitted to exceed posted speed limits
or otherwise disregard traffic regulations. See S.C.
Code Ann. § 56-5-760. Other than with respect to
certain exemptions described in Section 56-5760(C)—none of which apply here—officers are
required to use emergency lights and sirens for every
Code 3 response. See S.C. Code Ann. §§ 56-5-4700;
56-5-4970.2

(C) The exemptions in this section granted to an authorized
emergency vehicle apply only when the vehicle is making use of
an audible signal . . . and visual signals . . . , except that an
authorized emergency vehicle operated as a police vehicle need
not use an audible signal nor display a visual signal when the
vehicle is being used to: (1) obtain evidence of a speeding
violation; (2) respond to a suspected crime in progress when use
of an audible or visual signal, or both, could reasonably result
in the destruction of evidence or escape of a suspect; or (3)
surveil another vehicle or its occupants who are suspected of
involvement in a crime.
(D) The provisions of this section do not relieve the driver of
an authorized emergency vehicle from the duty to drive with
due regard for the safety of all persons. S.C. Code Ann. § 56-5760(A)-(D) (emphasis added).
See also S.C. Code Ann. § 56-5-4970 (“Any authorized
emergency vehicle may be equipped with a siren, whistle or bell
capable of emitting sound audible under normal conditions from
a distance of not less than five hundred feet . . . but such siren
shall not be used except when such vehicle is operated in
response to an emergency call or in the immediate pursuit of an
actual or suspected violator of the law, in which latter event the
driver of such vehicle shall sound such siren when necessary to
2

App. 5

McKinney activated his emergency lights and
siren and proceeded to Lollis’ location. “[A] few
seconds” later, Lollis radioed that units could “back
down on emergency response but continue to him
‘priority.’” J.A. 149. Hamby cancelled the Code 3 but
advised responding officers to continue to Lollis’s
location.
McKinney
acknowledged
Hamby’s
cancellation of the Code 3 and “cut back to normal
run,” J.A. 43, a non-emergency response where
officers must abide by all traffic laws. J.A. 75, see
S.C. Ann. §§ 56-5-760. McKinney deactivated his
emergency lights and siren, and, according to
McKinney, “began to reduce the speed of [his]
vehicle.” J.A. 40. As he continued along the road to
assist Lollis, McKinney passed Hamby, who was
travelling in the opposite direction. Approximately
two minutes after Hamby cancelled the Code 3,
McKinney lost control of his vehicle on a curved and
unlit section of the road. He crossed the center line
and struck Janel Harkness’s sedan nearly head-on.
Harkness sustained extensive and severe orthopedic
and neurological injuries. An accident reconstruction
determined that McKinney was travelling at least 83
miles per hour when he began to skid around the
curve—at least 38 miles per hour over the 45 mileper-hour speed limit.3 The Traffic Collision Report
warn pedestrians and other drivers of the approach thereof.”).
Hamby’s incident report notes that he did not observe
McKinney “traveling faster than the posted speed limit.” J.A.
43. But the district court inferred that McKinney proceeded to
Lollis’s location at a speed “well in excess of the posted speed
limit” based on (1) McKinney’s affidavit that he had to decrease
3

App. 6
indicates, and McKinney does not contest, that he
“contributed to [the] collision” and was “driving too
fast for conditions.” J.A. 68.
As a sheriff’s deputy, McKinney received
training on the operation of a police vehicle,
including when department policy and state law
required him to use his emergency lights and siren,
and when and under what circumstances he could
exceed the speed limit. His training also included
instruction on the risks of night driving. The rules
regarding safe vehicle operations were reinforced
during remedial counseling McKinney received
following his involvement in a series of incidents
involving his operation of police vehicles.
Harkness’s mother, Felicia Harkness Dean
(the “plaintiff”), acting as Harkness’s Guardian and
Conservator, filed a civil action in state court against
McKinney, Anderson County Sheriff Chad McBride,
and the Anderson County Sheriff’s Office. The
complaint included a claim pursuant 42 U.S.C. §
1983 alleging that McKinney violated Harkness’s
substantive due process rights under the Fourteenth
Amendment by “driving his vehicle at such an
extreme rate of speed without responding to an
emergency [or] chasing a criminal suspect,”
exhibiting
“conscience-shocking
deliberate
his speed after the Code 3 was cancelled, and (2) the accident
reconstructionist’s conclusion that he was traveling at
approximately 83 miles per hour at the time of impact. J.A 16061.

App. 7
indifference” to Harkness’s life and safety. J.A. 13.
The complaint also included a claim asserting
negligence and gross negligence under the South
Carolina Tort Claims Act. S.C. Code Ann. § 15-78-10,
et seq.4
McKinney removed the case to federal court,
and thereafter moved for summary judgment,
asserting that he was entitled to qualified immunity
as to the plaintiff’s Fourteenth Amendment claim
because the plaintiff failed to establish a violation of
Harkness’s substantive due process right. The
district court denied McKinney’s motion, finding that
(1) a reasonable jury could conclude that McKinney
violated her substantive due process right; (2)
McKinney is not entitled to qualified immunity; and
(3) the Parratt-Hudson doctrine does not preclude
her § 1983 action.
We affirm the decision of the district court. We
find that McKinney was not entitled to summary
judgment based on qualified immunity. A reasonable
jury could conclude that McKinney violated
Harkness’s clearly established substantive due
process right. Further, the Parratt-Hudson doctrine
does not bar the plaintiff’s substantive due process
claim.
II.
A.
4

These claims are not at issue in this appeal.

App. 8

A district court’s denial of summary judgment
based on qualified immunity is reviewed de novo. Iko
v. Shreve, 535 F.3d 225, 237 (4th Cir. 2008) (citing
Johnson v. Caudill, 475 F.3d 645, 650 (4th Cir.
2007)). Summary judgment is appropriate where
“the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
See also Williams v. Strickland, 917 F.3d 763, 768
(4th Cir. 2019) (citing Iko, 535 F.3d at 234) (a court,
when viewing facts in the light most favorable to the
plaintiff, and drawing all reasonable inferences in
the plaintiff’s favor, must determine whether
defendant is entitled to qualified immunity); Brown
v. Elliott, 876 F.3d 637, 641–42 (4th Cir. 2017)
(“[W]hen resolving the issue of qualified immunity at
summary judgment, a court must ascertain the
circumstances of the case by crediting the plaintiff’s
evidence and drawing all reasonable inferences in
the plaintiff’s favor.”) (internal quotation marks
omitted).
Under the doctrine of qualified immunity,
“government officials performing discretionary
functions generally are shielded from liability for
civil damages insofar as their conduct does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982). In considering a qualified immunity defense,
the court must consider whether the official violated
a statutory or constitutional right, and if so, whether

App. 9
that right was clearly established at the time of the
alleged conduct. See Ashcroft v. al-Kidd, 563 U.S.
731, 735 (2011); Miller v. Prince George’s Cty., 475
F.3d 621, 627-28 (4th Cir. 2007).
McKinney argues on appeal that he is entitled
to qualified immunity because his actions in driving
his vehicle did not rise to the level of a Fourteenth
Amendment substantive due process violation that
was clearly established at the time of the collision.
We examine each prong of qualified immunity
analysis in turn.
B.
1.
First, McKenney asserts that the district court
erred in finding that there was sufficient evidence of
a constitutional violation. To establish a substantive
due process violation, the plaintiff must show that
McKinney’s behavior was “so egregious, so
outrageous, that it may fairly be said to shock the
contemporary conscience.” Terrell v. Larson, 396
F.3d 975, 978 (8th Cir. 2005) (citing County of
Sacramento v. Lewis, 523 U.S. 833, 847 n.8 (1998)).
The parties agree that this “shocks the conscience”
standard applies to § 1983 claims alleging a violation
of substantive due process based on alleged police
misconduct. See Temkin v. Frederick Cty.
Commissioners, 945 F.2d 716, 722 (4th Cir. 1991). As
a threshold matter then, we must first determine
what level of culpability is required for McKinney’s

App. 10
actions to be considered “conscience shocking.”
Lewis, 523 U.S. at 850.
The Supreme Court in Lewis described a
“culpability spectrum” along which behavior may
support a substantive due process claim. Id. at 84849. The Court rejected “customary tort liability as
any mark of sufficiently shocking conduct” and held
that “liability for negligently inflicted harm is
categorically beneath the threshold of constitutional
due process.” Id. At the other the end of the
spectrum, the Court explains, is behavior “that
would most probably support a substantive due
process claim; conduct intended to injure [that is] in
some way unjustifiable by any government interest.”
Id. at 849. “[This] sort of official action is most likely
to rise to the conscience-shocking level.” Id. “[C]loser
calls,” however, are presented by conduct that is
“something more than negligence but ‘less than
intentional.’” Id. A determination as to which of
these standards of culpability—“intent to harm” or
“deliberate indifference”—applies requires “an exact
analysis of context and circumstances before any
abuse of power is condemned as conscience
shocking.” Id. at 850.
The parties disagree as to what standard of
culpability should apply in this case. McKinney
argues that the district court should have applied the
higher standard of “intent to harm” to his actions
because he was responding to what he believed to be
an emergency, and the plaintiff presented no
evidence that he intended to harm Harkness. But

App. 11
even if the lesser “deliberate indifference” standard
applies, he contends his actions did not demonstrate
deliberate indifference and were not conscienceshocking. The plaintiff asserts that there was no
emergency, and that McKinney’s conduct was so
egregious that it undoubtedly establishes that he
acted with deliberate indifference to Harkness’s life
and safety. We have examined each standard in light
of the facts and circumstances in this case and
conclude that for purposes of summary judgment,
deliberate indifference is the standard by which
McKinney’s conduct should be measured.
In Lewis, the Court made it clear that
regarding police actions, “high-speed chases with no
intent to harm suspects physically or to worsen their
legal plight do not give rise to liability under the
Fourteenth Amendment [that is] redressible by an
action under § 1983.” 523 U.S. at 854. As the Court
explained, the police are often called upon “to act
decisively and to show restraint at the same
moment, and their decisions have to be made in
haste, under pressure, and frequently without the
luxury of a second chance.” Terrell, 396 F.3d at 978
(citing Lewis, 523 U.S. at 853) (internal citations
omitted). Thus, “the intent-to-harm standard most
clearly applies ‘in rapidly evolving, fluid, and
dangerous situations which preclude the luxury of
calm and reflective deliberation.’” Id. at 978 (citing
Neal v. St. Louis County Bd. of Police Comm’rs, 217
F.3d 955, 958 (8th Cir.2000)).

App. 12
Since Lewis, courts have extended the
application of the intent-to harm standard, holding
that it applies not only “to an officer’s decision to
engage in high-speed driving in response to other
types of emergencies, [but also] to the manner in
which the police car is then driven in proceeding to
the scene of the emergency.” E.g., Terrell, 396 F.3d at
979. Thus, under Lewis, the intent-to-harm
culpability standard applies to officers responding to
an emergency call. Terrell, 396 F.3d at 980. See also
Radecki v. Barela, 146 F.3d 1227, 1230 (10th Cir.
1998) (intent-to-harm standard applies to “situations
involving law enforcement and governmental
workers deployed in emergency situations.”).
Along the culpability spectrum, deliberate
indifference is “an intermediate level of culpability”
that can, if proven, also establish a due process
violation. See Lewis, 523 U.S. at 848–49; see also
Young v. City of Mount Ranier, 238 F.3d 567, 575
(4th Cir. 2001) (citing Lewis, 523 U.S. at 849)
(conduct “falling within the middle range” of
culpability— that is, conduct that is more than
negligent but less than intentional—can give rise to
liability under the Fourteenth Amendment). But
unlike the intent-to-harm standard, this standard “is
sensibly employed only when actual deliberation is
practical.” Lewis, 523 U.S. at 851; see Wilson v.
Lawrence Cty., 260 F.3d 946, 956 (8th Cir. 2001).
Certainly, time to “reflect on [one’s] actions” is a
factor in determining whether deliberate indifference
is the appropriate standard. See Browder v. City of
Albuquerque, 787 F.3d 1076, 1082 (10th Cir. 2015).

App. 13
“[L]iability for deliberate indifference . . . rests upon
the luxury . . . of having time to make unhurried
judgments, upon the chance for repeated reflection,
largely uncomplicated by the pulls of competing
obligations. When such extended opportunities to do
better are teamed with protracted failure even to
care, indifference is truly shocking.” Lewis, 523 U.S.
at 853. Thus, when an officer is able to make
unhurried judgments with time to deliberate, such as
in the case of a non-emergency, deliberate
indifference is the applicable culpability standard for
substantive due process claims involving driving
decisions. See id.
Under this legal framework and viewing the
facts in the light most favorable to the plaintiff,5 we
For purposes of summary judgment, the district court
accepted as true the plaintiff’s contention that two minutes and
fifteen seconds elapsed between the cancellation of the Code 3
and the collision. J.A. 70, 73. The court relied on the computer
aided dispatch (“CAD”) report which shows a “CODE 3” status
entry at 22:32:53 p.m., and a “PRIORITY” status entry at
23:33:42 p.m. adjacent to McKinney’s name. At 22:35:57 p.m.,
the status entry is “Case Number 2016-18359.” J.A. 73. The
district court held that a trier of fact could conclude that the
“priority” entry reflects that the Code 3 was cancelled at
10:33:42 p.m. and that the collision occurred two minutes and
fifteen seconds later at 10:35:57 p.m. J.A. 161-62. But
McKinney disputes that over two minutes elapsed, suggesting
instead, based on an audio recording of police radio traffic, that
only forty-one seconds had elapsed. Adoption of McKinney’s
view, however, would require[] us to “impermissibly . . . view
the facts in the light most favorable to him rather than the
[plaintiff].” See Browder, 787 F.3d at 1081 (10th Cir. 2015).
5

App. 14
find that a jury could conclude that McKinney was
not responding to an emergency and had time to
deliberate his actions. First, McKinney argues that
he was responding to a potential emergency because
he had been ordered to assist Lollis, who sounded “on
edge or shaken,” with a traffic stop. J.A. 39-40. But
McKinney’s argument ignores other facts that
support a finding that there was no emergency.
Although Hamby initially issued an emergency call
and directed McKinney to assist, Lollis, after only “a
few seconds,” radioed that there was no emergency,
stating that “units could back down on emergency
response.”
J.A.
149.
McKinney
not
only
acknowledged the change in the status of the call but
stated affirmatively that he was “backing down” to
Code 1– a non- emergency response. J.A. 49; Audio
Recording of Police Radio at 3:34.
Second, McKinney also had time to deliberate
and consider his actions. See Lewis, 523 U.S. at 853.
The district court, relying on the objective data found
in the CAD Report—including time stamps that
correspond to the deputies’ radio transmissions—
concluded that a reasonable jury could find that two
minutes and fifteen seconds elapsed between the
cancellation of the emergency response and the
collision. Thus, McKinney had ample time to
consider, based on his training, department policy
and state law, the proper response given that the call
was no longer an emergency. He deactivated his
emergency lights and siren as required for nonemergency responses—indicating that he knew the
situation was no longer an emergency—but did not

App. 15
reduce his speed to conform to the speed limit. The
evidence therefore supports a finding that there was
no emergency, and that McKinney had ample time to
deliberate his actions. Accordingly, deliberate
indifference is the appropriate standard of
culpability at this posture, under the facts and
circumstances of this case, to determine whether
McKinney violated Harkness’s substantive due
process rights.
2.
Next, having established that deliberate
indifference is the proper standard, this Court must
consider whether McKinney’s conduct, when viewed
in the light most favorable to the plaintiff,
demonstrated deliberate indifference to Harkness’s
to life and safety. We find that a reasonable jury
could conclude that McKinney was deliberately
indifferent and that his conduct was “so egregious, so
outrageous, that it may fairly be said to shock the
contemporary conscience.” See Lewis, 523 U.S. at 847
n.8.
An officer’s actions demonstrate deliberate
indifference where the evidence shows that the
officer subjectively recognized a substantial risk of
harm and that his actions were inappropriate in
light of the risk. Parrish ex rel. Lee v. Cleveland, 372
F.3d 294, 303 (4th Cir. 2004) (citing Rich v. Bruce,
129 F.3d 336, 340 n.2 (4th Cir. 1997)). See also
Terrell, 396 F.3d at 984 (citing Farmer v. Brennan,
511 U.S. 825, 836–37 (1994) (deliberate indifference

App. 16
standard requires that the defendant disregard a
known substantial risk of serious harm). A
defendant’s subjective knowledge of the risk may be
inferred from circumstantial evidence. Parrish, 372
F.3d at 303 (quoting Farmer, 511 U.S. at 842).
We find that in this case, a reasonable jury
could conclude that McKinney deliberately operated
his police vehicle in a dangerous and reckless
manner with full knowledge of the risks involved.
The evidence supports a finding that McKinney
knew that he was no longer responding to an
emergency. He acknowledged the cancellation of the
Code 3 and stated he was “dropping back to Code 1,”
a regular, non-emergency response. J.A. 49. Further,
the evidence tends to show that based on his
training, he understood that department policy and
state law required that he deactivate his emergency
lights and siren and follow the speed limit. Contrary
to that training, however, McKinney continued to
drive at 83 miles per hour—nearly forty miles per
hour over the 45-mph speed limit—on a dark, curved
road with full knowledge of the risks of night driving
under such conditions. Driving without his
emergency lights and siren increased the danger, as
it eliminated any warning to other drivers that a law
enforcement vehicle was approaching at a high rate
of speed. And McKinney had over two minutes to
deliberate—to apply his knowledge and training to
the situation, reflect on his actions, and conform his
behavior— before he lost control of his vehicle and
collided with Harkness. Thus, a reasonable jury
could
conclude
that
McKinney
knowingly

App. 17
disregarded a substantial risk of serious harm, and
that his deliberate indifference to life and safety was
conscience-shocking, in violation of Harkness’s
Fourteenth Amendment substantive due process
rights. See Sauers v. Borough of Nesquehoning, 905
F.3d 711, 718 (3d Cir. 2018) (responding to nonemergency call at over 100 mph demonstrates
conscious disregard for a great risk of serious harm);
Browder, 787 F.3d at 1081 (where off-duty officer
was not chasing suspect or responding to an
emergency, “a reasonable jury could infer . . . a
conscious contempt of the lives of others and thus a
form of reckless indifference to a fundamental
right”).
C.
McKinney argues that notwithstanding a
conclusion by this Court that the plaintiff has
established a substantive due process violation, he is
entitled to qualified immunity because Harkness’s
constitutional right was not “clearly established at
the time of the challenged conduct.” al-Kidd, 563
U.S. at 735 (citing Harlow, 457 U.S. at 818). To be
clearly established, the right violated must be
“sufficiently clear that a reasonable official would
understand that what he is doing violates that
right.” Owens ex rel. Owens v. Lott, 372 F.3d 267, 279
(4th Cir. 2004). This determination “is an objective
one, dependent not on the subjective beliefs of the
particular officer at the scene, but instead on what a
hypothetical, reasonable officer would have thought
in those circumstances.” Id. at 279 (citing Wilson v.

App. 18
Kittoe, 337 F.3d 392, 402 (4th Cir.2003)). “‘Clearly
established’ does not mean that ‘the very action in
question has previously been held unlawful,’ but it
does require that, ‘in the light of pre-existing law the
unlawfulness [of the official’s conduct] must be
apparent.’” Owens, 372 F.3d at 279 (quoting Wilson
v. Layne, 526 U.S. 603, 615 (1999)). See also Amaechi
v. West, 237 F.3d 356, 362 (4th Cir.2001) (“exact
conduct at issue need not have been held unlawful
for the law governing an officer’s actions to be clearly
established”).
To determine if a constitutional right was
clearly established, we must examine controlling
authority in this jurisdiction, which includes “the
decisions of the Supreme Court, [this Circuit], and
the highest court of the state in which the case
arose.” Owens, 372 F.3d at 279. If “there are no such
decisions from courts of controlling authority, we
may look to ‘a consensus of cases of persuasive
authority’ from other jurisdictions if such exists.”
Booker v. S.C. Dep’t of Corr., 855 F.3d 533, 538-39
(4th Cir. 2017) (quoting Owens, 372 F.3d at 280). But
the absence of controlling authority holding identical
conduct unlawful does not guarantee qualified
immunity. See Kittoe, 337 F.3d at 403. “We must
consider not only ‘specifically adjudicated rights,’ but
also ‘those manifestly included within more general
applications of the core constitutional principles
invoked.’” Booker, 855 F.3d at 538 (citing Wall v.
Wade, 741 F.3d 492 (4th Cir. 2014)).

App. 19
That there is little precedent imposing liability
under these specific circumstances does not
necessarily mean that an officer lacks notice that his
conduct is unlawful. As then- Judge Gorsuch wrote
for the panel in Browder:
[S]ome things are so obviously unlawful
that they don’t require detailed explanation
and sometimes the most obviously unlawful
things happen so rarely that a case on
point is itself an unusual thing. Indeed, it
would be remarkable if the most obviously
unconstitutional conduct should be the
most immune from liability only because it
is so flagrantly unlawful that few dare its
attempt.
Browder, 787 F.3d at 1082–83 (citations omitted).
See also Hope v. Pelzer, 536 U.S. 730, 741 (2002)
(cases involving “fundamentally” or “materially
similar” facts are not necessary to a finding that the
law is clearly established). Accordingly, public
officials “‘can still be on notice that their conduct
violates established law even in novel factual
circumstances,’ so long as the law provided ‘fair
warning’ that their conduct was wrongful.”
Williamson v. Stirling, 912 F.3d 154, 187 (4th Cir.
2018) (citing Booker, 855 F.3d at 538). Further, this
Court has found that “we need not—and should
not—assume that government officials are incapable
of drawing logical inferences, reasoning by analogy,
or exercising common sense. In some cases,
government officials can be expected to know that if

App. 20
X is illegal, then Y is also illegal, despite factual
differences between the two.” Williams, 917 F.3d at
770.
With this legal framework in mind, the
question to be resolved is whether a reasonable
officer in McKinney’s position would have known
that his conduct—driving a police vehicle without
activating his emergency lights and siren at over 80
miles per hour on a curved, unlit road at night while
not responding to an emergency or pursuing a
suspect—could give rise to a claim for a Fourteenth
Amendment violation. As the district court noted,
“there is relatively scant caselaw imposing liability
in these specific circumstances.” J.A. 176. Neither
the Supreme Court nor this Court has considered the
exact conduct presented here. McKinney urges that
the facts of this case are most similar to the
circumstances presented in Lewis, where the Court
declined to find a constitutional violation. But Lewis,
523 U.S. at 837, as well as this Circuit’s opinion in
Temkin, 945 F.2d at 718, involved officers who
caused injuries while actively pursuing a fleeing
suspect. We have already established here that the
facts, viewed in the light most favorable to the
plaintiff, do not support a conclusion that these
circumstances are akin to a high-speed chase or that
McKinney was responding to an emergency. Beyond
this, the parties concede that no other court decisions
have addressed the factual circumstances upon
which we must make a determination.

App. 21
But while there is no case directly on point
factually to inform our analysis, core constitutional
principles set forth in numerous cases lead us to the
conclusion that Harkness’s substantive due process
right was clearly established. See Williamson, 912
F.3d at 187. Lewis is not factually analogous to our
case, but the Supreme Court did find that an officer
not actively pursuing a suspect or responding to an
emergency requiring quick decision-making, i.e.,
where “deliberation is practical,” may be liable based
on a
deliberate indifference standard for
unintentional conduct. 523 U.S. at 851. See Young,
238 F.3d at 574-75; see also Checki v. Webb, 785 F.2d
534, 538 (5th Cir. 1986) (quoted in Lewis, 523 U.S. at
854 n.13) (viable due process claim can arise when
person suffers serious physical injury “due to a police
officer’s intentional misuse of [a] vehicle”).
After Lewis, two Tenth Circuit cases adopted
the view that an officer can be liable for a
substantive due process violation under a deliberate
indifference standard when not responding to an
emergency or chasing a suspect. First, in Green v.
Post, 574 F.3d 1294 (10th Cir. 2009), the court
assessed the conduct of a speeding officer who was
not in pursuit of anyone or responding to an
emergency using a deliberate indifference standard.
Id. at 1302-03. The Tenth Circuit then affirmed its
view in Browder, where the court applied the
deliberate indifference standard to an off-duty officer
who used his emergency lights and drove at a high
rate of speed on personal business, resulting in a
fatal accident. The court found that proof of intent to

App. 22
harm is not required in cases where there is no
emergency or official business. 787 F.3d at 1081. The
court further noted, based on the Supreme Court’s
decision in Lewis and Third Circuit precedent, that
“as of 2006, it was clearly established ‘a police officer
could be liable under the Fourteenth Amendment’ for
driving in a manner that exhibits ‘a conscienceshocking deliberate indifference’ to the lives of those
around him.” Id. at 1083 (citing Green, 574 F.3d at
1306). Similarly, the Third Circuit reaffirmed in
Sauers that it has “been clear in recent years that
the level of culpability required to shock the
conscience when an officer has time for hurried
deliberation is ‘a conscious disregard of a great risk
of serious harm.’” 905 F.3d at 717 n.6 (citing Sanford
v. Stiles, 456 F.3d 298, 310 (3d Cir. 2006)).
Thus, while the courts have yet to consider a
case where an officer engaged in the same conduct as
McKinney, he is not absolved of liability solely
because the court has not adjudicated the exact
circumstances of his case. We find that a reasonable
officer in McKinney’s position would have known,
based on rights “manifestly included within more
general applications of the core constitutional
principles invoked,” Booker, 855 F.3d at 538, that an
officer may be subject to a claim under the
Fourteenth Amendment under a deliberate
indifference standard for unintentional injuries
caused when not responding to an emergency or
chasing a suspect. This substantive due process right
was clearly established at the time McKinney
engaged in the conduct that caused Harkness’s

App. 23
injuries. A reasonable officer in McKinney’s position
would have known his conduct was not only
unlawful, but that it created a substantial risk of
serious harm to those around him. As the court
stated in Browder, some conduct is so obviously
unlawful that an officer does not need a detailed
explanation. See 787 F.3d at 1082. Thus, we affirm
the district court’s finding that “in October 2016, it
was clearly established that an officer driving more
than 80 mph at night, on a curved section of an unlit
road, in a non-emergency, non-pursuit situation
could be subject to liability under the Fourteenth
Amendment for deliberate indifference to a
substantial risk of harm to those around him” and
that “[a] reasonable officer in McKinney’s position
would have realized such conduct was unlawful.”
J.A. 174.
Accordingly, taking the facts in the light most
favorable to the plaintiff, we find that McKinney’s
actions were deliberately indifferent to Harkness’s
life and safety such that it shocks the conscience and
rises to the level of a violation of a constitutional
right that was clearly established at the time of the
collision. We acknowledge that in the context of
qualified immunity, officials are not liable for “bad
guesses in gray areas.” Maciariello v. Sumner, 973
F.2d 295, 298 (4th Cir.1992) (citing Anderson v.
Creighton, 483 U.S. 635, 639–40 (1987)). But
McKinney’s actions, construed in the light most
favorable to the plaintiff, do not constitute a “bad
guess in a gray area” that qualified immunity
protects. See Sims v. Labowitz, 885 F.3d 254, 264

App. 24
(4th Cir. 2018). Thus, McKinney is not entitled to
qualified immunity and his motion for summary
judgment on that basis must be denied.
III.
Finally, McKinney asserts that even if this
Court determines that he violated a clearly
established constitutional right, the plaintiff’s
Fourteenth Amendment substantive due process
claim is barred by the Parratt-Hudson doctrine. See
Parratt v. Taylor, 451 U.S. 527 (1981), overruled in
part on other grounds, Daniel v. Williams, 474 U.S.
327, 330 (1986); Hudson v. Palmer, 468 U.S. 517
(1984). Because the doctrine’s applicability is limited
to procedural due process claims, the district court
correctly held that the Parratt- Hudson doctrine does
not apply to the plaintiff’s substantive due process
claim.
Under the Parratt-Hudson doctrine, a state
actor’s random and unauthorized deprivation of a
protected due process interest cannot be challenged
under § 1983 if the state provides an adequate postdeprivation remedy. See Parratt, 451 U.S. at 543-44;
Hudson, 468 U.S. at 533. See also Bogart v. Chapell,
396 F.3d 548, 563 (4th Cir. 2005) (where state
employees do not have authority to deprive persons
of their property and liberty, and have no duty to
provide pre-deprivation safeguards, doctrine bars a §
1983 due process claim based on employees’ random
and unauthorized conduct). McKinney argues that
the Parratt-Hudson doctrine controls the viability of

App. 25
the plaintiff’s Fourteenth Amendment substantive
due process claim, first because his actions were
unauthorized, and second, because the plaintiff was
afforded a post-deprivation remedy—the South
Carolina Tort Claims Act, S.C. Code Ann. § 15-78-10,
et seq., which allows plaintiffs who have suffered a
tortious loss at the hands of the state to recover for
gross negligence by a state employee. He contends
that the plaintiff’s case is nothing more than a
negligence action related to the operation and control
of his police vehicle, and that plaintiff’s Fourteenth
Amendment claim—which is based on the same facts
as her state claim for negligence and gross
negligence—is simply a tort claim “couched in terms
of constitutional deprivation [seeking relief] under §
1983.” See Parratt, 451 U.S. at 533.
But the Parratt-Hudson doctrine does not bar
the plaintiff’s substantive due process claim. In
Zinermon v. Burch, 494 U.S. 113 (1990), the
Supreme Court limited the application of the
doctrine to procedural due process claims for which
the state provides an adequate post-deprivation
remedy. As the Court explained, “the Due Process
clause contains a substantive component that bars
certain arbitrary, wrongful government actions
‘regardless of the fairness of the procedures used to
implement them.’” Id. at 125 (citing Daniels, 474
U.S. at 331). In such cases, “[a] plaintiff . . . may
invoke § 1983 regardless of any state-tort remedy
that might be available to compensate him for the
deprivation of these rights.” Zinermon. 494 U.S. at
125 (internal citations omitted). Thus, “[t]he fact that

App. 26
the alleged wrongdoing also violated state law and
could support a tort claim is not sufficient to invoke
the Parratt doctrine.” Armstrong v. Daily, 786 F.3d
529, 539 (7th Cir. 2015) (citing Zinermon, 494 U.S. at
128).
Our Circuit has adopted the Supreme Court’s
reasoning, holding that
[S]ome abuses of governmental power may
be so egregious or outrageous that no state
post-deprivation remedy can adequately
serve to preserve a person’s constitutional
guarantees of freedom from such conduct.
Thus, conduct that ‘shocks the conscience’ .
. . violates substantive guarantees of the
Due Process Clause independent of the
absence or presence of post-deprivation
remedies available through state tort law.
Temkin, 945 F.2d at 720 (citing Daniels, 474 U.S. at
338 (Stevens, J., concurring)). See also Lewis v.
McDorman, 820 F. Supp. 1001, 1003 n.3 (W.D. Va.
1992), aff’d, 28 F.3d 1210 (4th Cir. 1994) (where
Fourteenth Amendment deprivation at stake is
substantive, not procedural, Parratt does not apply,
as it applies only to procedural due process
violations); McDonald v. Dunning, 760 F. Supp.
1156, 1168 (E.D. Va. 1991) (Parratt’s holding that
state post-deprivation remedies may constitute
adequate due process is relevant only where the
claim is a violation of procedural due process).

App. 27
Here, the plaintiff has made only a
substantive due process claim. Such a claim focuses
on egregious state conduct rather than unfair
procedures. McKinney’s argument fails because the
availability and adequacy of a post-deprivation state
remedy is irrelevant to the analysis for a substantive
due process claim. And according to Zinermon, the
availability of a state law remedy for McKinney’s
egregious conduct does not impact the plaintiff’s §
1983 suit. Id. at 125.
We are not persuaded by McKinney’s reliance
on then-Judge Gorsuch’s concurrence in Browder v.
City of Albuquerque, 787 F.3d at 1085, which
suggests Zinermon’s application of the ParrattHudson doctrine to procedural, but not substantive,
due process claims was dicta and thus “the question
whether Parratt applies to substantive due process
claims . . . remains a live and open one.” Browder,
787 F.3d at 1085 (quoting Lewis, 523 U.S. at 840 n.
4). On remand, the district court acknowledged that
“federal courts have been granted authority
pursuant to 42 U.S.C. § 1983 ‘to remedy
constitutional violations by state officials acting
under color of state law,’ id. at 1083 (citing Monroe v.
Pape, 365 U.S. 167 (1961)), and the law has been
clearly established that substantive due process
violations fall within this grant of authority.”
Browder v. City of Albuquerque, No. CIV 13-0599
RB/KBM, 2016 WL 4376054, at *4 (D.N.M. May 10,
2016) (citing Zinermon, 494 U.S. at 125).

App. 28
This Court, relying upon the body of wellreasoned Fourth Circuit precedent and persuasive
authority, declines to extend the Parratt-Hudson
doctrine to the plaintiff’s substantive due process
claim. Such an extension would be inconsistent with
the jurisprudence that recognizes the fundamental
differences between substantive and procedural due
process claims. Accordingly, we find that the
plaintiff’s Fourteenth Amendment substantive due
process claim against McKinney is not barred by the
Parratt-Hudson doctrine.
IV.
For these reasons, we affirm the decision of
the district court and remand the case for further
proceedings.
AFFIRMED
RICHARDSON, Circuit Judge, dissenting:
The majority dutifully recites the familiar rule
that qualified immunity shields an officer from suit
unless he violated a constitutional right that was
“clearly established.” Yet the majority fails to
faithfully follow that rule—ignoring the Supreme
Court’s consistent admonition that it really must be
clearly established that the officer’s particular
conduct was prohibited by the Constitution.

App. 29
Instead, the majority hangs its hat on a murky
substantive-due-process claim. The governing
constitutional standards are not clearly established.
And the caselaw’s application to the hurried,
discrete, and torn conduct underlying this case is
also not clearly established. Yet the majority ignores
this compounded uncertainty to forge new law that it
then finds had been “clearly established.” The only
course available to us as inferior- court judges is to
respect the Supreme Court’s instructions and hold
that the officer is immune from suit. I respectfully
dissent.
I. The doctrine of qualified immunity
The doctrine of qualified immunity—controversial,
contested, and binding—is a familiar rule.1 The
doctrine shields the officer from suit unless his
conduct violated “clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982).
Perhaps reflecting the lack of explicit textual
support in the statutory scheme, the Supreme Court
has justified the doctrine as, among other things, a
creature
of
public
policy—the
“best
[]
To follow the thoughtful critiques and defenses of qualified
immunity, start by comparing William Baude, Is Qualified
Immunity Unlawful, 106 CAL. L. REV. 45 (2018), with Aaron L.
Nielson & Christopher J. Walker, A Qualified Defense of
Qualified Immunity, 93 NOTRE DAME L. REV. 1853 (2018).
1

App. 30
accommodation” of “competing values.” Harlow, 457
U.S. at 815; see also, e.g., Pierson v. Ray, 386 U.S.
547,
556–57
(1967)
(offering
a
historical
justification); Screws v. United States, 325 U.S. 91,
100–04 (Douglas, J., plurality) (suggesting a fairnotice justification); cf. Crawford-El v. Britton, 523
U.S. 574, 611–12 (1998) (Scalia, J., dissenting)
(asserting
a
second-best-constitutionalism
justification). On the one hand is the pressing need
to ensure the “vindication of constitutional
guarantees.” Harlow, 457 U.S. at 814. Compare
Marbury v. Madison, 5 U.S. 137, 163 (1803), with
John C. Jeffries, Jr., The Right-Remedy Gap in
Constitutional Law, 109 YALE L.J. 87 (1999). On the
other, “claims frequently run against the innocent as
well as the guilty—at a cost not only to the defendant
officials, but to society as a whole,” creating “the
danger that fear of being sued will ‘dampen the ardor
of all but the most resolute, or the most irresponsible
[public officials], in the unflinching discharge of their
duties.’” Harlow, 457 U.S. at 814 (quoting Gregoire v.
Biddle, 177 F.2d 579, 581 (2d. Cir. 1949) (Learned
Hand, J.)). The Supreme Court instructs that
qualified immunity, rather than absolute immunity
(or absolute liability), best reconciles these
competing demands so that executive officials
remain both accountable to the law and energetic in
their duties—wielding the sword with neither
tyranny nor trepidation. Harlow, 457 U.S. at 819.
This balance is not perfect, but it is the law.
The resulting doctrine demands we clear a
high bar before concluding that a right was “clearly

App. 31
established.” “We do not require a case directly on
point.” Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).
But we do require that “existing precedent” place the
“question beyond debate,” so that “‘the contours of [a]
right [are] sufficiently clear’ that every ‘reasonable
official would have understood that what he is doing
violates that right.’” Id. (quoting Anderson v.
Creighton, 483 U.S. 635, 640 (1987)); see also
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015); Saucier
v. Katz, 533 U.S. 194, 202 (2001). Of course,
reasonable officials are capable of “drawing logical
inferences, reasoning by analogy, or exercising
common sense.” Williams v. Strickland, 917 F.3d
763, 770 (4th Cir. 2019). But they are not
soothsayers—expected to divine what some judges
might suss out of oblique prior pronouncements, only
to be personally liable when they fail to see the
future. See Procunier v. Navarette, 434 U.S. 555, 562
(1978).
To ensure that “every reasonable official”
would understand the illegality of the conduct, “the
clearly established right must be defined with
specificity.” City of Escondido v. Emmons, 139 S. Ct.
500, 503 (2019). The Supreme Court has “repeatedly
told courts . . . not to define clearly established law at
a high level of generality.” Id. (quoting Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018)); see also alKidd, 563 U.S. at 742; Broseau v. Haugen, 543 U.S.
194, 198 (2004). It is “not enough” to say that it is
clearly established that an individual has a
constitutional right to be free from unreasonable
seizures. Saucier, 533 U.S. at 202; see also City and

App. 32
County of San Francisco v. Sheehan, 135 S. Ct. 1765,
1776 (2015). Instead, we must examine the specifics
of the existing precedents, determining whether the
particulars of those cases would place a reasonable
law-enforcement officer on notice that particular
conduct is unlawful. See Kisela, 138 S. Ct.at 1152;
Mullenix, 136 S. Ct. at 308; White v. Pauly, 137 S. Ct.
548, 552 (2017); Anderson v. Creighton, 483 U.S. 635,
640 (1987).2
The Supreme Court has made it clear that
“specificity is especially important” where it is
“difficult for an officer to determine how the relevant
legal doctrine . . . will apply to the factual situation
the officer confronts.” Mullenix, 136 S. Ct. at 308
(highlighting the needed specificity under the
excessive-force doctrine of the Fourth Amendment);
see also District of Columbia v. Wesby, 138 S. Ct. 577,
590 (2018) (Because of its “imprecise nature, officers
will often find it difficult to know how the general
standard of probable cause applies in the precise
The Supreme Court repeatedly reminds courts how high
the “clearly established” bar is. See, e.g., City of Escondido, 139
S. Ct. at 503; Kisela, 138 S. Ct. at 1152; Wesby, 138 S. Ct. at
593; White, 137 S. Ct. at 551; Mullenix, 136 S. Ct. at 308.
Indeed, over the last 35 years, the Supreme Court has found
that official conduct violated “clearly established law” in two
cases, Groh v. Ramirez, 540 U.S. 551, 564 (2004), and Hope v.
Pelzer, 536 U.S. 730, 741–42 (2002). Baude, 106 CAL. L. REV.
at 82 n.1. Groh involved a warrant that completely failed the
particularity requirement while Hope involved the use of a
hitching post for prison discipline despite several sources
declaring that particular practice unconstitutional. 540 U.S. at
564; 536 U.S. at 741–42.
2

App. 33
situation encountered . . . Thus, we have stressed the
need to identify a case where an officer acting under
similar circumstances was held to have violated the
Fourth Amendment . . . While there does not have to
be a case directly on point . . . a body of relevant
caselaw is usually necessary to clearly establish the
answer.” (cleaned up)). The more unclear the general
rule, the more specific the circumstances must be to
find clearly established law. Id.
The required specificity is especially important
when the claim depends on substantive due process,
which is even more unclear generally and offers even
less guidance in particular circumstances than
Fourth Amendment jurisprudence. This is because
“the Court has always been reluctant to expand the
concept of substantive due process because
guideposts for responsible decisionmaking in this
unchartered area are scarce and open-ended . . .
[thus] self-restraint requires us to exercise the
utmost care whenever we are asked to break new
ground in this field.” Collins v. City of Harker
Heights, 503 U.S. 115, 125 (1992). In finding a
substantive-due-process right, the Court requires a
close analysis of the “Nation’s history and tradition”
and requires a “careful description of the asserted
fundamental liberty interest.” Washington v.
Glucksberg, 521 U.S. 702, 721 (1997). Recognizing
the complexities and uncertainties of this doctrine,
other courts have described this process as “wad[ing]
into the murky waters of that most amorphous of
constitutional doctrines, substantive due process.”
Tun v. Whitticker, 398 F.3d 899, 900 (7th Cir. 2005).

App. 34
The lack of clarity surrounding substantive due
process— and the Court’s admonishments in this
area—cautions us to seek cases that address the
specific circumstances at hand to find clearly
established law.
In looking for clearly established law that
gives a defendant “fair warning” that his particular
conduct was unlawful, we turn first to the Supreme
Court. City of Escondido, 139 S. Ct. at 503. We also
consider our own controlling circuit precedent.
Williams, 917 F.3d at 769. And our Circuit has held
that we may also find ‘fair warning’ for a reasonable
officer by canvassing the mass of cases from the
thirteen judicial circuits in search of a “robust
consensus of persuasive authority.” Id. But no
matter how wide we cast our net, we must heed the
repeated admonition that the standards for a law to
be ‘clearly established’ remain specific and
demanding. See, e.g., al-Kidd, 563 U.S. at 741.
II. The officer is entitled to qualified immunity
The majority, regrettably, forgets that
qualified-immunity doctrine is a demanding
standard requiring specificity. Whatever the firstprinciples answers to the questions raised here, the
majority’s fundamental problem is simple: no clearly
established law placed the unconstitutionality of this
officer’s conduct beyond debate.
According to the plaintiff, Officer McKinney
violated her right to substantive due process by

App. 35
colliding with her vehicle while the officer, in
violation of state law, was exceeding the speed limit.
Around 10:30 p.m., Deputy Lollis radioed a request
for assistance with a traffic stop. The Shift
Supervisor believed that Lollis’s voice sounded
“shaken” and issued a “Code 3” “emergency response”
for nearby officers to help. J.A. 40–43, J.A. 75. A
“Code 3” allows officers to disregard traffic
regulations using emergency lights and sirens. See
S.C. Code Ann. §§ 56-5-760; 56-5-4700; 56-5-4970.
Shortly after the “Code 3,” Lollis radioed to “back
down on emergency response but continue to him
‘priority.’” J.A. 43, 149. It is contested whether the
accident occurred forty seconds after the “Code 3”
cancellation or if two minutes elapsed. But either
way, Officer McKinney had acknowledged the “Code
3” cancellation and turned off his emergency lights
and siren. Officer McKinney then hit Janel
Harkness’s vehicle—severely injuring her—while
traveling at least 83-mph around a curvy road in the
dark.
The majority divines clearly established law
that
showed
the
officer’s
actions
were
constitutionally prohibited. This is wrong for two
interrelated reasons. First, the general legal
standards here are unsettled. And second, even
accepting the majority’s preferred legal standard, its
specific application here is unsettled as well.
Although I respect the majority’s valiant effort to
deduce clearly established law from such
compounded uncertainty, the majority’s trudge
through this murky morass suggests a simple

App. 36
truth—if clearly established law is so hard to find,
perhaps that is because it does not (yet) exist.3
A. Lack of clearly established standards
The majority’s first problem is that the general
standard the majority requires to reach its result is
far from clearly established. Diving into an area with
broad indeterminacies, the majority fails to prove
that it is beyond debate what general standard
should be applied. Though it settles on requiring
‘deliberate indifference’ rather than an ‘intent to
harm,’ the majority’s conclusion is anything but
compelled by prior caselaw.
1. Substantive due process

At the outset, I acknowledge that the doctrine of
substantive due process, like qualified immunity, remains
controversial in many quarters. See John Hart Ely, Democracy
and Distrust: A Theory of Judicial Review 18 (1980); United
States v. Carlton, 512 U.S. 26, 39−42 (1994) (Scalia, J.,
concurring). Everyone seems to recognize that this doctrine,
perhaps because of its unusual textual foundation, is often
uncertain in its rules and unsettled in its applications. See, e.g.,
Washington v. Glucksberg, 521 U.S. 702, 720 (1997) (observing
that “guideposts for responsible decisionmaking in this
uncharted area are scarce and open-ended” (cleaned up)). Yet
we are bound as inferior-court judges to follow the Supreme
Court’s instructions, whatever their contested status.
Regrettably, as discussed below, the majority only respects this
role for inferior courts halfway—pulling its punches on
qualified immunity’s clear requirements while aggressively
expanding what few substantive-due-process cases we have.
3

App. 37
To begin, the standards for substantive-dueprocess violations are famously unclear and
frequently underdeveloped. Perhaps struck by the
“great silences” of the Fourteenth Amendment’s Due
Process Clause, H.P. Hood & Sons, Inc. v. Du Mond,
336 U.S. 525, 535 (1949); see U.S. CONST. amend.
XIV (“nor shall any State deprive any person of life,
liberty, or property, without due process of law . . .”),
the Supreme Court has articulated the governing
test for substantive due process in highly general—
sometimes diverging, but firmly demanding—terms.
See County of Sacramento v. Lewis, 523 U.S. 833, 846
(1998).
The governing test for substantive due process
is a two-part inquiry. See id.; Glucksberg, 521 U.S. at
720–21; Zablocki v. Redhail, 434 U.S. 374, 387
(1978). We first ask whether the government has
infringed a carefully described fundamental right.
See Glucksberg, 521 U.S. at 720–21; Palko v.
Connecticut, 302 U.S. 319, 325 (1937); Zablocki, 434
U.S. at 387. That first step is undisputed here, since
no one doubts that the collision was a direct and
substantial
impairment
of
the
plaintiff’s
fundamental right. So everything here turns on the
second step, whether the “executive action . . . can
properly be characterized as arbitrary, or conscience
shocking, in a constitutional sense,” so that it lacks
“any reasonable justification in the service of a
legitimate governmental objective.” Lewis, 523 U.S.
at 847 (quoting Collins, 503 U.S. at 115). “[T]he
Fourteenth Amendment is not a ‘font of tort law to be
superimposed upon whatever systems may already

App. 38
be administered by the States.’” Id. at 848 (quoting
Paul v. Davis, 424 U.S. 693, 701 (1976)).4 So “only
the most egregious official conduct can be said to be
‘arbitrary in the constitutional sense.’” Id. at 846.
The conduct must truly “shock the conscience.” Id. at
847 n.8.
But that broad “shocks the conscience”
standard, whatever its virtues or vices, is “no
calibrated yardstick.” Id. at 847. And while it might
“point the way,” this amorphous and malleable test—
by itself—fails to provide enough guidance to hold
that the officer violated clearly established law. See
id. at 846–47 (quoting Johnson v. Glick, 481 F.2d
1028, 1033 (2d. Cir. 1973) (Friendly, J.)); see also
Browder v. City of Albuquerque, 787 F.3d 1076,
1078–80 (10th Cir. 2015) (surveying “what guidance
we’ve received in this murky area”). So the majority
turns to another general standard.
2. Culpability spectrum

South Carolina established the “South Carolina Tort
Claims Act” as “the exclusive and sole remedy for any tort
committed by an employee of a governmental entity while
acting within the scope of the employee’s official duty.” S.C.
Code §15-78-200. Though these plaintiffs brought a tort action
as prescribed by the South Carolina Tort Claim Act, they also
sought to add a constitutional due process claim that extends
beyond the state’s limitations on suits against government
employees.
4

App. 39
Searching for more specificity, the majority
looks to the “culpability spectrum” provided by
Lewis. There, the Court provided some guidance
(though not clear directions) for evaluating when
executive action violates substantive due process. See
Lewis, 523 U.S. at 845−54. On the Supreme Court’s
“culpability spectrum,” “negligence” is never enough
to
find a
substantive-due-process
violation,
“deliberate indifference” is only sometimes enough,
and “intent to harm” is usually enough. Id. The
majority claims that it is clearly established that the
plaintiff’s substantive-due-process right is violated
here so long as the officer’s conduct was “deliberately
indifferent.”
I am not persuaded. At most one might decide
that the deliberate-indifference standard should
apply to a substantive-due-process claim where there
is ‘actual time for deliberation,’ like when addressing
a prison inmate’s medical condition. See Lewis, 523
U.S. at 851, 853; Green v. Post, 574 F.3d 1294, 1301
n.8 (10th Cir. 2009) (reflecting that “the meaning of
the term ‘deliberation,’ and a determination of when
an officer has time for ‘actual deliberation,’ is
elusive” and “context-specific”); see also Young v. City
of Mount Ranier, 238 F.3d 567, 575 (4th Cir. 2001)
(instructing that “deliberate indifference,” in “limited
circumstances,” can be “sufficiently shocking to the
conscience that it can support a Fourteenth
Amendment claim”). But it is not clearly established
that the type of conduct here—hurried, discrete, and
torn between the competing needs of speed and
safety (to say nothing of the only recently downscaled

App. 40
emergency call)—constitutes the type of unhurried,
iterative, and uncomplicated deliberation that is
classically subjected to the deliberate-indifference
standard. See Lewis, 523 U.S. at 851, 853. This doubt
as to the proper standard persists wherever we
turn—the cases and their lessons are too sparse, too
distinguishable, and too conflicted to clearly
establish that ‘deliberate indifference’ is the right
standard here.
a. Controlling caselaw
Controlling authority from the Supreme Court
and our Circuit fails to clearly establish that the
deliberate-indifference standard applies in reviewing
the officer’s conduct here. See William, 917 F.3d at
769.
i. Supreme Court
Start with Supreme Court precedent. There is
not much here for the majority to rely upon (as the
majority seems to concede). Indeed, the only real
decision on which the majority stakes its claim is
Lewis. But that decision—even if it provides a
helpful framework for structuring the analysis—does
not provide clear answers that resolve the fight over
the legal standard here.
While Lewis recognized a “culpability
spectrum” that governs claims like the one before us
here—with
negligence
being
“categorically”

App. 41
insufficient, and intent to harm being “most likely
sufficient”—the Court was careful to avoid
establishing when “culpability falling within the
middle range” would be enough. Lewis, 523 U.S. at
849 (observing that this conduct “is a matter for
closer calls”). Within this uncertain middle range,
the Court clarified, there are some potentially
helpful guideposts. One guidepost is in the custodial
prison context, where “liability for deliberate
indifference . . . rests upon the luxury of unhurried
judgments, upon the chance for repeated reflection,
largely uncomplicated by the pulls of competing
obligations,” and so the deliberate-indifference
standard is “sensibly employed only when actual
deliberation is practical.” Id. at 851 n.11, 853. The
holding in Lewis itself provided another guidepost.
For actions taken during a high-speed chase aimed
at apprehending a suspected offender, where
unforeseen circumstances demand an instant
judgment on the part of an officer who feels the pulls
of competing obligations, only an intent to cause
harm will satisfy the shocks-the-conscience test. Id.
at 853–55.
But those guideposts fail to provide answers
for the appropriate standard to apply here. How are
we—much less an officer—to know where on the
spectrum an officer responding to a recently
downgraded emergency call for assistance falls? Does
that situation have the type of prolonged, iterative,
and uncomplicated opportunity for deliberation that
Lewis observed generally justifies application of the
deliberate- indifference standard? Or does that

App. 42
situation look more like “decisions [that] have to be
made in haste, under pressure, and frequently
without the luxury of a second chance” in
“circumstances that are tense, uncertain, and rapidly
evolving” with “obligations that tend to tug against
each other”? Id. at 853 (instructing that prison
officials tasked to quell a riot or police officers
engaging in a high-speed chase are not subject to the
deliberate-indifference standard). Maybe others
think it obvious, but this framework fails to provide
me with certainty, much less fair notice to a
reasonable officer in his patrol car.
ii. Fourth Circuit
Our own precedents provide no greater clarity.
Like other circuits, we have wrestled with what to
make of Lewis, continually failing to definitively
identify what standard should govern an officer’s
non-emergency response to a request for assistance.
What cases we have in this general area are
scarce and, just as importantly, more than a little
unclear on how to extend their lessons to contexts
beyond the particular circumstances they consider.
Even viewing the few cases we have at a higher level
of generality—something the Supreme Court
prohibits, see City of Escondido, 139 S. Ct. at 503—
fails to establish that the deliberate-indifference
standard must apply here. See Young v. City of
Mount Ranier, 238 F.3d 567, 574–76 (4th Cir. 1991)
(applying the deliberate-indifference standard to
review the death of a suspect in police custody, based

App. 43
on the unique context of the suspect’s detention in a
prison setting).
Indeed, the most analogous guidance we have
instructs us that the deliberate- indifference
standard cannot apply. In Temkin v. Frederick
County Commissioners, we refused to apply the
deliberate-indifference
standard
or
find
a
substantive-due-process violation when an officer
struck a bystander with his vehicle during a longlasting high- speed chase that proceeded from a
minor legal violation and that implicated violations
of police protocols. 945 F.2d 716, 721–23 (4th Cir.
1991) (gathering similar cases from other circuits).
And while a jurist can find distinctions, Temkin
alone should preclude finding that it is clearly
established that the deliberate-indifference standard
applies here.
At their very most, our few precedents in this
area offer far too little. There are some contexts that
call for the deliberate-indifference standard (Young’s
pretrial detention). But we also know that this
standard is inappropriate in other contexts (Temkin’s
high-speed car chases). Yet our law does nothing to
firmly place the type of conduct here on the end of
the spectrum that justifies applying deliberate
indifference. If anything, it seems telling that in the
closest situation to our case—the high-speed chase in
Temkin—we rejected the very deliberate-indifference
standard that the majority seeks to apply.5
5

Indeed, we have, like Lewis, recognized that the hallmarks

App. 44

b. Persuasive authority
With no help from controlling precedent, the
majority must turn elsewhere. But that too turns up
dry. Try as it might, the majority fails to show that a
“robust consensus of persuasive authority” clearly
establishes that the deliberate-indifference standard
applies here. Williams, 917 F.3d at 769. The majority
does not make any serious attempt to establish a
truly robust ‘consensus.’ Instead, the majority relies
on a smattering of passing citations and on brief
nods to a handful of tangentially related Third and
Tenth Circuit decisions, which is understandable
given that the cases are, as everyone concedes, few
and far between. See Majority Op. 18–19; see also id.
10–11. And the limited caselaw that the majority
does rely on—fairly sparse, often distinguishable,
and somewhat conflicted—does not clearly establish
that the hurried, discrete, and torn conduct here is
subject to the deliberate-indifference standard.
Instead of clear answers, this caselaw leaves us with
landmarks at the polar extremes of the doctrinal
spectrum—with some cases applying the deliberateof substantive due process for violations by executive officials
are far from certain and depend on the particular context in
which the conduct took place—further undermining the
contention that our precedent clearly establishes that the
deliberate-indifference standard should apply to the novel
situation before us. See Temkin, 945 F.2d at 723 n.5; Rucker v.
Harford Cnty., 946 F.2d 278, 281 (4th Cir. 1991); Young, 238
F.3d at 574–75; Hawkins v. Freeman, 195 F.3d 732, 742 (4th
Cir. 1999).

App. 45
indifference standard (generally distinguishable) and
other cases applying the higher intent-to-harm
standard (generally closer). But it provides no clear
guidance that tells us, beyond debate, where we
should put this officer’s conduct on the spectrum
between the two extremes.
At one end of the spectrum, some cases
brought to our attention by the plaintiff apply the
deliberate-indifference standard. Those cases affirm
the Supreme Court’s broad principle that ‘actual
time to deliberate’ generally triggers the deliberateindifference standard. But in doing so those cases
deal with different situations and thus provide little
guidance for how we should consider the conduct
here.6 While these cases are neither clear nor
consistent on which factors count for how much in
different situations (part of the problem for the
majority), they seem far afield from what we have
before us.
See, e.g., Okin v. Village of Cornwall-on-Hudson Police
Dep’t, 577 F.3d 415, 431–32 (2d. Cir. 2009) (applying the
deliberate-indifference standard where officers failed to respond
to a request for protection from domestic violence, where
repeated requests had been made over time and did not require
officers to balance competing considerations in formulating
response); McQueen v. Beecher Cmty. Sch., 433 F.3d 460, 469
(6th Cir. 2006) (applying the deliberate-indifference standard
where a school teacher failed to protect minor students by
leaving those students alone with a classmate known to have
behavioral problems as the teacher “had the opportunity to
reflect and deliberate before deciding to [leave] children
unsupervised in the classroom” and “did not need to make a
split-second decision”).
6

App. 46

The closest cases the majority has—the Tenth
Circuit’s decisions in Browder and Green and the
Third Circuit’s decision in Sauers—do little to
convince me that the conduct here falls under the
rubric of the deliberate-indifference standard. While
the Browder decision applied the deliberateindifference standard, it did so where the officer was
on his personal time, not pursuing any official
business at all. See Browder, 787 F.3d at 1080–81
(applying the deliberate-indifference standard where
the officer had been speeding for eight minutes on
his personal time, with no official business or
emergency). And the Green decision, beyond
whatever differences we might draw, is at most one
dim point in a confused constellation that the
majority calls on to answer the case before us today.
See Green, 574 F.3d at 1301 n.8, 1310 (recognizing
that whether there is sufficient time to deliberate is
“elusive” and “context-specific,” and holding that the
deliberate-indifference standard was appropriate
when an officer collided with another car while
engaged in a high-speed chase of a car that had
stolen gasoline). In fact, after finding that the officer
did not act unconstitutionally, the Tenth Circuit in
Green concluded that it was “not clearly established
what specific standard applied to the particular facts
of this case—i.e., where the officer was engaged in a
high-speed non-emergency response.” 574 F.3d at
1304 (surveying different circuits).
The Sauers decision, also distinguishable, cuts
the other way by refusing to apply the deliberate-

App. 47
indifference standard to a high-speed, long-lasting
chase of a suspect for a minor traffic offense. See
Sauers v. Borough of Nesquehoning, 905 F.3d 711,
717–18 (3d Cir. 2018). Rather than provide clarity,
the Third Circuit only muddied the waters further by
applying its own unique standard—higher than
deliberate indifference but lower than intent to
harm. Id. The Third Circuit has held that when
officers have time to engage in “hurried
deliberation,” there will be liability when those
actions “reveal a conscious disregard of a great risk
of serious harm.” Id. The Third Circuit applied this
higher standard rather than deliberate indifference
where an officer lost control of his car and hit the
plaintiff while engaged in a high-speed pursuit
(sometimes exceeding 100-mph) over a nonemergency “summary traffic offense.” Id. at 715. The
Third Circuit found that the officer violated the
Constitution in this situation, but after surveying
cases from across the country, including Green, the
court held that the law had not been clearly
established. Id. at 719–23.
After granting qualified immunity, the Third
Circuit stated that its decision would establish the
law for similar cases within that circuit. Id. at 723.
But Sauers cannot provide clearly established law
here, as Sauers came two years after this crash. See
Wesby, 138 S. Ct. at 589 (“To be clearly established, a
legal principle must have a sufficiently clear
foundation in then-existing precedent.”); DiMeglio v.
Haines, 45 F.3d 790, 795 (4th Cir. 1995) (stating that
one “analyze[s] the law at the time of the alleged

App. 48
conduct in order to determine whether the plaintiff
has established that the defendant’s conduct, when
perpetrated, violated clearly established law”
(quoting Hinton v. City of Elwood, 997 F.2d 774,
779–80 (10th Cir. 1993))); see also Majority Op. 18–
19 (analyzing the law at the time of the accident in
October 2016 but also relying on Sauers). Whatever
utility Sauers offers the Fourth Circuit in this area
now, it could not have provided notice to the officer
here.
And whatever alleged ‘consensus’ might be
drawn from those cases is undermined by other cases
applying the intent-to-harm standard in analogous
circumstances. As this Circuit did in Temkin, those
cases suggest that where an officer is tasked to
respond immediately to an unfolding situation in a
manner that balances the competing needs to
respond quickly but drive safely, something more
than deliberate indifference is generally required. As
the Third Circuit noted, “the Eighth and Ninth
Circuits [] have adopted an ‘intent to harm’ standard
for all police pursuit cases, whether or not an
emergency existed at the time of pursuit.” Sauers,
905 F.3d at 721.7
See Sitzes v. City of West Memphis, 606 F.3d 461, 464 (8th
Cir. 2010) (requiring intent to harm where officer crashed into a
car while driving in excess of 80-mph on a 30- mph road
without sirens or lights in response to a robbery of $55 and an
alleged assault even though the crime was not ongoing and
other officers were already en route); Terrell v. Larson, 396 F.3d
975, 978–79 (8th Cir. 2005) (applying the intent-to-harm
standard where officer collided with bystander while engaged in
high-speed response to an emergency domestic disturbance
call); Bingue v. Prunchak, 512 F.3d 1169, 1177 (9th Cir. 2008)
7

App. 49

Taking these cases together, no consensus,
much less a robust one, emerges. Reasonable
arguments exist that the conduct here—hurried,
discrete, and torn between competing interests in
responding quickly but safely to a newly downscaled
call—falls either on the “deliberate indifference” or
“intent to harm” side of the line (or perhaps
somewhere in-between). The situation here required
a quick (but not split-second) response. It implicated
important (but not compelling) interests. And it
involved an urgent (but no longer an emergency)
situation. So what to make of the precise conduct
here is challenging. Without a clearly established
general standard, the majority’s case for stripping
the officer of qualified immunity is off to a poor start.
B. Lack of clearly established application
Even were one to find a robust consensus
requiring the officer act with only deliberate
indifference and not an intent to harm, the
application of that standard to the particular conduct
here was not clearly established. See Parrish ex rel.
Lee v. Cleveland, 372 F.3d 294, 302 (4th Cir. 2004).
In part, this is because “deliberate indifference is a
very high standard,” so “in order to be liable under
this standard, the official must both be aware of facts
(agreeing with the “Eighth Circuit and declin[ing] to try to draw
a distinction between ‘emergency’ and ‘non-emergency’
situations involving high-speed chases aimed at apprehending a
fleeing suspect”).

App. 50
from which the inference could be drawn that a
substantial risk of serious harm exists, and [the
official] must also draw the inference.” Id. (cleaned
up). The analysis is highly context dependent, as the
“rules of due process are not . . . subject to
mechanical application in unfamiliar territory.
Deliberate indifference that shocks in one
environment may not be so patently egregious in
another, and our concern with preserving the
constitutional proportions of substantive due process
demands an exact analysis of circumstances before
any abuse of power is condemned as conscience
shocking.” Lewis, 523 U.S. at 850.
While the majority contends that “core
constitutional principles” establish the substantivedue-process violation alleged here, Majority Op. 17
(citing Williamson v. Stirling, 912 F.3d 154, 187 (4th
Cir. 2018)); cf. Southern Pac. Co. v. Jensen, 244 U.S.
205, 222 (1917) (Holmes, J., dissenting), the
majority’s concession that there is “little precedent
imposing
liability
under
these
specific
circumstances” is a telling sign about the state of the
law in this muddled, underdeveloped area. Majority
Op. 16; see also al-Kidd, 563 U.S. at 741 (explaining
why that concession is not an ideal starting place on
the path to the ultimate conclusion that a rule of
constitutional law was “clearly established”).
1. Controlling caselaw
To begin, our “controlling precedent” does not
establish that the officer’s conduct clearly violated

App. 51
the plaintiff’s substantive-due-process right. No
Supreme Court case has imposed liability in an even
remotely similar circumstance. See Lewis, 523 U.S.
at 853– 54 (rejecting a substantive-due-process claim
where police engaged in a high-speed chase of a
motorcycle for speeding and failing to stop before
crashing into the motorcycle). Nor has any Fourth
Circuit case done so. See, e.g., Temkin, 945 F.2d at
723 (rejecting a substantive-due-process claim when
the plaintiff was struck by a suspect fleeing during a
high-speed chase, even though the chase continued
over ten-miles, began because of a minor violation,
occurred after officers already had a partial
identification of the license plate, and violated police
protocols during the chase).
2. Persuasive caselaw
The only source left for the majority to find
clearly established law—persuasive out- of-circuit
cases that might form a “robust consensus” on the
question—does little more to establish that the
officer’s hurried, discrete, and torn conduct reflected
such deliberate indifference that it unquestionably
shocks the conscience. Even leaving aside the
majority’s lack of any attempt to establish a robust
consensus of caselaw that applies the deliberateindifference standard to factual contexts like the
scenario presented here, the handful of cases that
the majority cites to assert that the officer’s conduct
was deliberately indifferent are not very helpful.

App. 52
The only decision brought to our attention that
found that the officer violated clearly established law
in even remotely similar circumstances—then-Judge
Gorsuch’s decision for the Tenth Circuit in
Browder—is distinguishable along several fronts.
The most obvious distinction is that the officer in
that case was “on no one’s business but his own,”
while the officer here was engaged in an on-duty
response to another officer’s call for assistance. See
Browder, 787 F.3d at 1077. The Tenth Circuit made
clear that the officer was not “pursuing any
emergency or any official business at all,” so that
“[t]he officer in these circumstances face[d] no tug
between duties owed to two sets of innocents, . . . no
emergency, no one . . . call[ing] for his aid, and [sat]
instead in the same place as everyone else when it
comes to respecting the rights of others.” Id. at 1081.
The officer here, on the other hand, was responding
to another officer’s call for assistance that had just
been downgraded from an emergency.
The remaining decisions relied on by the
majority that apply anything like the deliberateindifference standard undermine, rather than
support, the majority’s result. Most importantly, the
Tenth Circuit’s decision in Green found no
constitutional violation even though the officer
driving a patrol vehicle without lights or sirens
struck another vehicle at “a high level of speed” in an
intersection where the light was turning yellow,
while in pursuit of “a vehicle suspected of driving
away from a gas station without paying for
approximately $30.00 worth of gas.” 574 F.3d at

App. 53
1296–97. The officer admitted that this was not an
“emergency situation” but merely trying “to catch up
to the suspected violator of the law, to verify that it
was the vehicle involved in the theft of the gas.” Id.
at 1297. The court applied the deliberate-indifference
standard but found that the conduct did not violate
the Constitution because “while not an emergency,
[the situation] nonetheless required a rapid
response.” Id. at 1303–04. Again, the officer in our
case was responding to a call for assistance that
began as an emergency call and was downgraded just
before the crash. To borrow from Green, this case too
required a “rapid response,” and thus no violation
occurred. Id.
The Third Circuit in Sauers applied its own
unique standard but did find that the officer’s
conduct leading to a wreck during a high-speed chase
of a traffic offender was unconstitutional. 905 F.3d at
717–18. But in doing so, the Court recognized that
there was no clearly established law at the time of
the crash in 2014 and granted qualified immunity.
Id. Decided two years after the wreck in this case,
the Sauers decision provides no support for the
majority.
The majority’s cited cases hardly constitute
the “body of relevant case law . . . necessary to
clearly establish the answer” in this specific
circumstance, especially when the standard to be
applied is as general and amorphous as the
substantive-due-process claim is here. Wesby, 138 S.
Ct. at 590. And so, taking these controlling and out-

App. 54
of-circuit cases together, it is not clearly established
that the officer’s conduct here was so deliberately
indifferent to the plaintiff’s substantive-due-process
rights that it shocked the conscience.8 The ‘shocksthe-conscience’ inquiry, sometimes narrowed to the
deliberate- indifference standard, is a demanding
test in the best of times. But here, when asked to run
it through the qualified-immunity analysis, the only
thing that is clear is that the majority falls short.
What cases and instructions we have are too sparse
and too distinguishable to provide a sound
foundation for concluding that the officer here is not
entitled to qualified immunity, whether we consider
the lack of clearly established standards or their
unsettled applications to the conduct in this case.
C. Aggregated uncertainty
The problems with the majority’s decision so
far—its failure to show either clearly established
standards or applications that lead to its soughtThe majority does little to line up the particular conduct
here with the particular conduct reviewed in related decisions.
See Majority Op. 16 (“That there is little precedent imposing
liability under these specific circumstances does not necessarily
mean that an officer lacks notice that his conduct is unlawful.”).
Given the scant and uncertain caselaw reviewing situations like
this, the majority instead resorts to “core constitutional
principles,” id. 17, relying on broad generalizations to conclude
both that conduct occurring after actual time for deliberation is
actionable if taken with deliberate indifference and that such
deliberate indifference was present here. But that is not how we
have been instructed to apply the qualified-immunity doctrine.
8

App. 55
after result—are not unique. What is special here,
and part of what makes today’s decision troublesome,
is how the majority’s isolated errors at each step of
the analysis compound. Although the majority
engages in a two-step approach to the qualifiedimmunity analysis (first considering the standard
and then considering that standard’s application),
the majority neglects to consider the extent to which
doubts as to the standard (step one) and doubts as to
its application (step two) must be aggregated to
determine whether the officer violated clearly
established law. Rather than aggregating the
uncertainty inherent at each step of the analysis, the
majority treats each in isolation as a threshold
requirement with no carryover effect— violating a
rule of elementary statistics.9 And so, while I believe
that the majority has stumbled at each step of its
analysis, I also believe that the majority’s decision
today has created a more serious problem. That is,
the majority apparently proposes that when engaged
in a multi-step analysis in search of clearly
established law, the doubts at each step of the
analysis need not be aggregated at the end. Surely,
there must be at least some relationship between
how confident we are that we are using the right
doctrinal yardstick and how confident we are that

To see why this is problematic, imagine that one was 60
percent sure that the proper standard is deliberate indifference
and, similarly, 60 percent sure that the officer’s conduct was
deliberately indifferent. The aggregated confidence in an
outcome of liability would not be 60 percent but less than 40
percent.
9

App. 56
the officer’s conduct falls short. But the majority,
apparently, finds none. That is a mistake.
*

*

*

What happened to Harkness was a tragedy
(one for which state tort law provides a remedy). But
there is no clearly established constitutional law
here. This case arises at a seldom-visited crossroads
in our doctrinal landscape—the rare rendezvous
where the demanding requirement that the law must
be “clearly established” meets the famously
malleable set of amorphous commitments that go by
the name of “substantive due process.” Sometimes,
the common-law process, developing from one case to
the next, can distill clear answers from even the
murkiest fonts. But that is not the case here. As the
majority itself seems to acknowledge, the cases in
this area of law are scarce. And the more abstract
and general the standard, the more concrete and
specific the application must be. Yet what cases we
have are distinguishable and countered by cases
cutting the other way—leaving us with little
guidance on what to do with the hurried, discrete,
and torn conduct here. Without clear standards with
clear application, the only thing that seems clearly
established is that the majority has gone awfully far
afield from the Supreme Court’s instructions.
What, then, to make of today’s decision? With
no clearly established law, perhaps it has less to do
with the Supreme Court’s qualified-immunity
doctrine and more to do with misgivings about the

App. 57
wisdom of that doctrine. Those misgivings, to be
sure, are understandable. Even after all these years,
the doctrine of qualified immunity remains
controversial, and there are thoughtful reasons for
reconsidering or reforming it. But those are decisions
for the Supreme Court (or Congress). Not us. And so,
with respect for my colleagues, I cannot join an
opinion that I fear will have the effect of quietly
diluting and tacitly cheapening a doctrine that we
are bound to apply so long as it remains standing. I
respectfully dissent.

App. 58
FILED: December 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-1383
(8:17-cv-02088-TMC)
___________________
FELICIA HARKNESS DEAN, as Guardian and
Conservator for and on behalf of Janel Harkness, an
incapacitated adult
Plaintiff - Appellee
v.
STEPHEN B. MCKINNEY
Defendant - Appellant
and
CHAD MCBRIDE, in his official capacity as the
Sheriff of Anderson County Sheriff’s Office; THE
ANDERSON COUNTY SHERIFF’S OFFICE
Defendants

App. 59
___________________
ORDER
___________________
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Chief
Judge Gregory, Judge Motz, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

App. 60
UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION
Felicia Harkness Dean, )
as Guardian and
) Case No. 8:17-cv-2088-TMC
Conservator for and on )
behalf of Janel Harkness, )
an incapacitated adult, )
)
Plaintiff,
)
)
v.
)
ORDER
)
Stephen B. McKinney,
)
Chad McBride, in his
)
official capacity as
)
Sheriff of Anderson
)
County, and the
)
Anderson County
)
Sheriff’s Office,
)
)
Defendants.
)
_______________________ )
In October 2016, Janel Harkness (“Janel”)
sustained severe injuries in a traffic accident with
Deputy Sheriff Stephen B. McKinney (“McKinney”),
who was on duty at the time. Plaintiff Felicia
Harkness Dean (“Plaintiff”), acting as Guardian and

App. 61
Conservator for Janel, brought this action in South
Carolina state court seeking redress against
McKinney, Anderson County Sheriff Chad McBride,
and the Anderson County Sheriff’s Office. (ECF No.
1-1). The complaint asserted a substantive due
process claim under 42 U.S.C. § 1983, as well as a
negligence claim under the South Carolina Tort
Claims Act. See S.C. Code Ann. § 15-78-10 et seq.
(ECF No. 1-1 at 4-6).
Defendants removed the action to this court on
the basis of federal question jurisdiction. (ECF Nos. 1
and 2); see 28 U.S.C. § 1331. Before the court is
McKinney’s motion for summary judgment as to the
substantive due process claim. (ECF No. 21). As
explained below, the court concludes that McKinney
is not entitled to qualified immunity against this
claim. Accordingly, the court denies McKinney’s
motion for summary judgment. Id.
I. Background
Viewed in the light most favorable to Plaintiff,
the relevant facts are these. On October 19, 2016,
shortly before 10:30 p.m., McKinney, a Deputy
Sheriff employed by the Anderson County Sheriff’s
Department, was on patrol and driving a
government-owned 2010 Chevrolet Tahoe SUV. (ECF
Nos. 21-2 at 1; 30 at 2; 30-2 at 1). At the same time,
Janel was driving her 2000 Honda Accord to a
manufacturing plant in Anderson, where she was
scheduled to work the third shift. (ECF No. 30 at 2).
At approximately 10:30 p.m., Deputy Kenneth Lollis,
who was also on patrol, radioed requesting

App. 62
assistance. (ECF Nos. 21-2 at 1; 21-3 at 3). McKinney
believed that Lollis sounded “shaken.” (ECF No. 21-2
at 1). The shift supervisor, Lieutenant Scott Hamby,
issued an “emergency” call—a “Code 3” in law
enforcement parlance—for available officers to assist
Lollis. (ECF Nos. 21-3 at 3; 21-2 at 2). McKinney
activated his lights and siren, and he proceeded
down Masters Boulevard toward Lollis’s location,
well in excess of the posted speed limit.1 (ECF No.
21-2 at 2). Shortly thereafter, Lollis indicated there
was no emergency. (ECF No. 21-3 at 3). Lt. Hamby
cancelled the Code 3 but advised responding officers
to continue moving toward Lollis’s location. (ECF
Nos. 21-3 at 3; 21-2 at 2). McKinney acknowledged
Lt. Hamby’s cancellation of the Code 3 directive,
deactivated his lights and siren, and, he claims,
“began to reduce the speed of [his] vehicle.” Id.2

Even though there is no evidence of exactly how fast
McKinney was traveling right after responding to the Code 3,
the court draws this inference based on McKinney’s affidavit
that he had to decrease his speed after the Code 3 was
subsequently cancelled and Plaintiff’s evidence that McKinney
was traveling approximately 83 mph at impact. See Brown v.
Elliott, 876 F.3d 637, 641–42 (4th Cir. 2017) (“[W]hen resolving
the issue of qualified immunity at summary judgment, a court
must ascertain the circumstances of the case by crediting the
plaintiff’s evidence and drawing all reasonable inferences in the
plaintiff's favor.” (internal quotation marks omitted)).
1

McKinney told Lt. Hamby he would proceed to Code 1,
which, according to Sheriff’s Department policy, requires onduty officers to observe posted speed limits and all traffic
signals. (ECF No. 30 at 3).
2

App. 63
A little more than two minutes after Lt.
Hamby cancelled the Code 3, McKinney lost control
of the Tahoe on a curved and unlit section of Masters
Boulevard. (ECF No. 30-1 at 2). McKinney crossed
over the center line and struck Janel’s Accord, which
was traveling in the opposite direction. (ECF No. 301 at 1). The Tahoe overturned and came to rest on its
passenger side. The Accord was knocked off the road,
and Janel sustained severe injuries requiring her to
be airlifted from the scene of the accident. (ECF Nos.
1-1 at 4; 30-1 at 1).
McKinney disputes that two minutes elapsed
between the cancellation of the Code 3 and the
collision, suggesting instead that it was a matter of
“seconds.” (ECF No. 21-2 at 2). McKinney points to
an audio recording of police radio traffic on October
19, 2016, (ECF No. 30-5), as proof that only forty-one
seconds elapsed between the time the Code 3 was
cancelled and the collision. (ECF No. 38 at 6).
Plaintiff, on the other hand, submitted the police
dispatch report (“CAD” report) for the evening of
October 19, 2016 (ECF No. 30-4), to show that at
least two minutes elapsed between Lt. Hamby’s
cancellation of the Code 3 emergency and the
collision. The CAD report has a “CODE 3” status
entry at 10:32:53 p.m. and a “PRIORITY” status
entry at 10:33:42 p.m. adjacent to McKinney’s name.
Id. At 10:35:57 p.m., the status entry set forth on the
CAD report is “Case Number 2016- 18359,” id., but
there is no officer’s name associated with the entry.
A trier of fact could conclude, as Plaintiff submits,
that the “PRIORITY” entry reflects that the Code 3

App. 64
emergency was cancelled at 10:33:42 p.m., and that
“Case Number 2016- 18359” indicates the collision
occurred two minutes and fifteen seconds later at
10:35:57 p.m. Therefore, a trier of fact could also
reasonably conclude the CAD report shows that
McKinney had more than two minutes to reduce his
speed to the posted limits before encountering
Janel’s vehicle. Because this matter is before the
court on summary judgment, the court will accept as
true Plaintiff’s position that two minutes and fifteen
seconds passed between the cancellation of the
emergency and the collision.
According to McKinney, he immediately
turned off his blue lights and siren and reduced his
speed when Lt. Hamby advised all units that Deputy
Lollis’s matter was no longer an emergency. Plaintiff,
however, presented evidence that McKinney was
traveling at least 38 mph over the posted speed limit
of 45 mph. Specifically, Plaintiff offered the affidavit
of an accident reconstructionist who, based on a
physical examination of the accident scene and
vehicles and a review of police documents related to
the crash, opined that “Deputy McKinney was
operating the 2010 Chevrolet Tahoe travelling west
on Masters Blvd. [at a speed of] at least 83 Miles Per
Hour prior to the start of the skid” causing
McKinney to “rotate[] counter clockwise” into the
“left front” part of Janel Harkness’s Accord. (ECF
No. 30-2). Additionally, the official police Traffic
Collision Report Form indicated that McKinney was
operating his vehicle too fast for conditions. (ECF No.
30-1). McKinney did not present contradictory

App. 65
evidence with respect to his rate of speed at the
moment of impact.3
As previously noted, Plaintiff asserted a §
1983 claim against McKinney, alleging he violated
Janel’s substantive due process rights under the
Fourteenth Amendment by “driving his vehicle at
such an extreme rate of speed without responding to
an emergency” that he exhibited “deliberate
indifference” to Janel’s life and safety. (ECF No. 1-1
at 4). McKinney moved for summary judgment on
the basis of qualified immunity. (ECF No. 21-1 at 8).
McKinney also seeks summary judgment on the
ground that Plaintiff failed as a matter of law to
establish a substantive due process claim against
McKinney. Id. at 4. Plaintiff filed a memorandum in
opposition (ECF No. 30), and McKinney filed a reply
memorandum (ECF No. 38). The matter is ripe for
review, and the court concludes that a hearing is
unnecessary to render a decision.
II. Summary Judgment Standard
Summary judgment is appropriate only if the
moving party “shows that there is no genuine dispute
as to any material fact and the [moving party] is
entitled to judgment as a matter of law.” Fed. R. Civ.
McKinney did present an incident report prepared by Lt.
Hamby following the accident indicating that after the Code 3
was cancelled, he and McKinney passed each other traveling in
opposite directions and he “did not observe [McKinney]
traveling faster than the posted speed limit.” (ECF No. 21-3).
3

App. 66
P. 56(a). A party may support or refute that a
material fact is not disputed by “citing to particular
parts of materials in the record” or by “showing that
the materials cited do not establish the absence or
presence of a genuine dispute, or that an adverse
party cannot produce admissible evidence to support
the fact.” Fed. R. Civ. P. 56(c)(1). Rule 56 mandates
entry of summary judgment “against a party who
fails to make a showing sufficient to establish the
existence of an element essential to that party’s
case.” Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986).
In deciding whether there is a genuine issue of
material fact, the evidence of the non-moving party
is to be believed and all justifiable inferences must
be drawn in favor of the non-moving party. See
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986). However, “[o]nly disputes over facts that
might affect the outcome of the suit under the
governing law will properly preclude the entry of
summary judgment. Factual disputes that are
irrelevant or unnecessary will not be counted.” Id. at
248. The moving party has the burden of proving
that summary judgment is appropriate. Once the
moving party makes this showing, however, the
opposing party may not rest upon mere allegations or
denials, but rather must, by affidavits or other
means permitted by the Rule, set forth specific facts
showing that there is a genuine issue for trial. See
Fed. R. Civ. P. 56(c), (e); Celotex Corp., 477 U.S. at
322.

App. 67
III. Qualified Immunity
Qualified immunity protects government
officials from civil liability and suit for “conduct
[that] does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982). In considering an official’s claim of
qualified immunity, the court must determine
whether “(1) the official violated a statutory or
constitutional right, and (2) . . . the right was clearly
established at the time of the challenged conduct.”
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011)
(internal quotation marks omitted). This court enjoys
the discretion to address these two prongs in any
order it sees fit. See Pearson v. Callahan, 555 U.S.
223, 226 (2009). If the plaintiff fails to establish
either one of these prongs, the official is entitled to
qualified immunity. See id. at 244-45.
IV. Discussion
A. Constitutional Violation
1. Standard of Culpability
Plaintiff contends that McKinney violated
Janel’s substantive due process rights by driving his
vehicle recklessly and with deliberate indifference to
Janel’s safety. (ECF No. 1-1 at 4-5). The due process
clause of the Fourteenth Amendment includes a
substantive
component
that
“bar[s]
certain
government actions regardless of the fairness of the

App. 68
procedures used to implement them.” Daniels v.
Williams, 474 U.S. 327, 331 (1986). “The touchstone
of due process is protection of the individual against
arbitrary action of government,” Wolff v. McDonnell,
418 U.S. 539, 558 (1974), which includes a safeguard
against “the exercise of power without any
reasonable justification in the service of a legitimate
governmental objective,” Daniels, 474 U.S. at 331.
When the act in question involves an executive,
rather than legislative, exercise of power, the
Supreme Court’s decisions “have repeatedly
emphasized that only the most egregious official
conduct can be said to be arbitrary in the
constitutional sense.” County of Sacramento v. Lewis,
523 U.S. 833, 846 (1998). Specifically, the Court has
articulated “the cognizable level of executive abuse of
power [to be] that which shocks the conscience.” Id.
at 846. In other words, substantive due process
rights are abridged by executive action only when
such action “can properly be characterized as
arbitrary, or conscience shocking, in a constitutional
sense.” Collins v. Harker Heights, 503 U.S. 115, 128
(1992) (internal quotation marks omitted).
The starting point for determining the
applicable standard of culpability in this case is the
Supreme Court’s Lewis decision. See, e.g., Browder v.
City of Albuquerque, 787 F.3d 1076, 1078-82 (10th
Cir. 2015) (Gorsuch, J.). In Lewis, the Court
considered a claim that police deprived a motorcycle
passenger of his substantive due process right to life
when the passenger was killed during a high- speed
chase that began after the motorcycle failed to pull

App. 69
over. See 523 U.S. at 836-37. The Ninth Circuit
concluded that the level of fault required to shock the
conscience in “high-speed police pursuits is
deliberate indifference to, or reckless disregard for, a
person’s right to life and personal security.” Id. at
838 (internal quotation marks omitted).
The Supreme Court disagreed with the Ninth
Circuit, observing that the level of culpability
required to “shock the contemporary conscience” is
dictated by the particular circumstances of that case.
See id. at 848-49. First, the Court dismissed
negligence as a basis for liability under the
Fourteenth Amendment, explaining that mere acts of
negligence by the police fall “categorically beneath
the threshold of constitutional due process.” Id. at
849. Next, the Court indicated that on “the other end
of the culpability spectrum” is “conduct intended to
injure” which always “rise[s] to the conscienceshocking level.” Id. Lewis makes clear that the
intent-to- harm standard is appropriate for cases
where “unforeseen circumstances demand an officer’s
instant judgment.” Id. at 853. On the facts before it
in Lewis, the Court held that the officer “was faced
with a course of lawless behavior” that was
“practically instantaneous,” and that, therefore, in
order to establish liability, plaintiffs were required to
show an intent to harm. Id. at 855.
Lewis also recognized that police conduct
“falling within the middle range,”— i.e., acts that
constitute “something more than negligence but less
than intentional conduct, such as recklessness or
gross negligence” is actionable under the Fourteenth

App. 70
Amendment. Id. at 849. Deliberate indifference,
Lewis explained, is more appropriate when officials
“hav[e] time to make unhurried judgments, upon the
chance for repeated reflection, largely uncomplicated
by the pulls of competing obligations.” Id. at 853; see
also id. at 851 (utilization of the “deliberate
indifference” standard of culpability is appropriate,
as the term implies, “[w]hen actual deliberation is
practical”).
McKinney argues that, in situations requiring
a high-speed response from law- enforcement
officers, there can be no liability unless the officer
intended to harm the injured party. (ECF No. 38 at
3). Plaintiff does not allege that McKinney intended
to harm Janel or suggest that she can meet this
standard. Rather, plaintiff contends that the
deliberate indifference standard applies because
McKinney was not responding to an emergency and
had ample time to consider “how he would drive his
police vehicle before he encountered [Janel] and
caused the collision that injured her.” (ECF No. 30 at
8).
The court agrees that the deliberate
indifference standard applies here. The facts, when
viewed in a light most favorable to Plaintiff, permit a
reasonable trier of fact to conclude that McKinney
was not driving over 80 mph as a result of a splitsecond decision made “under pressure.” Lewis, 523
U.S. at 853. After Lt. Hamby cancelled the Code 3,
McKinney had ample time to reduce his speed to
comply with the posted speed limit of 45 mph. Even

App. 71
if McKinney’s opportunity to deliberate was
somewhat “hurried,” he had at least some time to
contemplate how to respond to Lollis’s nonemergency call. This fact-pattern falls within the
“middle range” of culpability referenced in Lewis. See
523 U.S. at 847. Conduct encompassed by this
“‘middle range’ of culpability” is considered
“sufficiently shocking to the conscience that it can
support a Fourteenth Amendment claim” if the
conduct “amounts to ‘deliberate indifference.’” Young
v. City of Mount Ranier, 238 F.3d 567, 575 (4th Cir.
2001).
2. Deliberate Indifference
The court turns next to consider whether
McKinney’s conduct—again, based on the facts
viewed in the most favorable light to Plaintiff—could
reflect a deliberate indifference to a “great risk of
serious injury to someone in Plaintiff’s position.”
Green v. Post, 574 F.3d 1294, 1303 (10th Cir. 2009)
(internal question marks omitted). The court
concludes that it could.
The “deliberate indifference” standard imposes
liability where the evidence shows (1) the officer
subjectively recognized a substantial risk of harm,
and (2) the officer subjectively recognized that his
actions were inappropriate in light of that risk.
Parrish ex rel. Lee v. Cleveland, 372 F.3d 294, 303
(4th Cir. 2004). “‘A factfinder may infer that an
officer knew of a substantial risk from the very fact
that the risk was obvious.’” Id. (quoting Farmer v.

App. 72
Brennan, 511 U.S. 825, 842 (1994)). Likewise, a trier
of fact may conclude that the officer’s response to the
risk was so clearly inadequate as to justify an
inference that the officer realized his response to the
risk was inappropriate under the circumstances. Id.
Driving at excessive speeds of over 80 mph—
nearly twice the posted speed limit—at night on a
curved section of an unlit road threatens anyone in
the vicinity, “be they suspects, . . . passengers, other
drivers, or bystanders.” Lewis, 523 U.S. at 853.
Accordingly, law enforcement officers may engage in
such risky conduct “only when reasonable
justification exists.” Sauers v. Borough of
Nesquehoning, 905 F.3d 711, 718 (3d Cir. 2018)
(internal quotation marks omitted). “Responding to a
true emergency” or “[p]ursuing an actively fleeing
suspect who is endangering the public welfare” may
constitute “reasonable justification” for an officer’s
operation of his vehicle at such high speeds. Id. The
facts here suggest no such justification. There was no
emergency. There was no fleeing suspect or ongoing
crime that that endangered the public. Thus,
McKinney was traveling a curved section of an unlit
road at night at more than 80 mph for no legitimate
reason. A reasonable trier of fact could conclude that
this conduct demonstrated a deliberate indifference
to the safety of those in McKinney’s vicinity and,
therefore, constituted conduct that was “arbitrary” or
“conscience shocking” in violation of Janel’s
substantive due process rights. See Collins, 503 U.S.
at 128.4 Other courts agree. See, e.g., Sauers, 905
4

In his opening brief, McKinney referred to Parratt v.

App. 73
F.3d at 718 (having “no difficulty in concluding” that
deciding to respond to a non- emergency call “at
speeds of over 100 miles-per-hour . . . demonstrates a
conscious disregard of a great risk of serious harm);
Browder, 787 F.3d at 1081 (holding that where offTaylor, 451 U.S. 527 (1981), and suggested that because
Plaintiff has a remedy available under the South Carolina Tort
Claims Act, the court ought to abstain under Parratt. (ECF No.
21-1 at 7). McKinney fully developed this argument in his reply
brief. (ECF No. 38 at 15-17).
Parratt held that the Due Process Clause of the Fourteenth
Amendment is not violated when a state employee negligently
deprives an inmate of property, provided that the state makes
available a meaningful post-deprivation remedy. See Parratt,
451 U.S. at 543. The Court explained that “[a]lthough the state
remedies may not provide the respondent with all the relief
which may have been available if he could have proceeded
under § 1983, that does not mean that the state remedies are
not adequate to satisfy the requirements of due process.” Id. at
544. McKinney relies on then-Judge Gorsuch’s concurrence in
Browder opining that abstention under Parratt may be
appropriate because “when a rogue state official acting in
defiance of state law causes a constitutional injury there’s every
reason to suppose an established state tort law remedy would
do as much as a novel federal remedy might and no reason
exists to duplicate the effort.” Browder, 787 F.3d at 1084
(Gorsuch, J.).
The court declines to abstain under Parratt in this case.
Federal courts have been granted authority pursuant to § 1983
“to remedy constitutional violations by state officials acting
under color of state law,” id. at 1083, and substantive due
process violations are included within this grant of authority,
Zinermon v. Burch, 494 U.S. 113, 125 (1990) (“A plaintiff . . .
may invoke § 1983” for a substantive due process violation
“regardless of any state–tort remedy that might be available to
compensate him for the deprivation of these rights.”).

App. 74
duty officer was traveling over 100 mph even though
he was not chasing a suspect or responding to an
emergency, “a reasonable jury could infer something
more, a conscious contempt of the lives of others and
thus a form of reckless indifference to a fundamental
right”).
Accordingly, the court concludes that the
evidence, viewed in a light most favorable to
Plaintiff, is sufficient for a reasonable jury to
conclude
that
McKinney
abridged
Janel’s
substantive due process rights under the Fourteenth
Amendment
B. Clearly Established Law
Despite the court’s determination that a
reasonable trier of fact could conclude that
McKinney violated Janel’s constitutional rights,
McKinney is nonetheless entitled to qualified
immunity if Janel’s constitutional rights were not
“clearly established at the time of the challenged
conduct.” al-Kidd, 563 U.S. at 735 (internal
quotation marks omitted). In order to decide whether
a right was clearly established at the time of the
constitutional violation, the court looks to “cases of
controlling authority in [this] jurisdiction.” Amaechi
v. West, 237 F.3d 356, 363 (4th Cir. 2001) (internal
quotation marks omitted). Controlling authority
consists of “the decisions of the Supreme Court,
[Fourth Circuit Court of Appeals], and the highest
court of the state in which the case arose.” Owens ex
rel. Owens v. Lott, 372 F.3d 267, 279 (4th Cir. 2004).

App. 75
If “there are no such decisions from courts of
controlling authority, [the district court] may look to
‘a consensus of cases of persuasive authority’ from
other jurisdictions, if such exists.” Booker v. S.C.
Dep’t of Corr., 855 F.3d 533, 538- 39 (4th Cir. 2017)
(quoting Owens, 372 F.3d at 280).
The “clearly established” inquiry asks whether
the conduct in question “violate[s] clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Harlow, 457
U.S. at 818. A “right is clearly established only if its
contours are` sufficiently clear that ‘a reasonable
official would understand that what he is doing
violates that right.’” Carroll v. Carman, 135 S. Ct.
348, 350 (2014) (quoting Anderson v. Creighton, 483
U.S. 635, 640 (1987)). In making this assessment,
district courts must be mindful of the Supreme
Court’s repeated admonishment “not to define clearly
established law at a high level of generality.” Kisela
v. Hughes, 138 S. Ct. 1148, 1152 (2018) (internal
quotation marks omitted).
On the other hand, the “clearly established”
requirement does not mandate that “the very action
in question has previously been held unlawful.”
Wilson v. Layne, 526 U.S. 603, 615 (1999). “Clearly
established” law includes “not only already
specifically adjudicated rights, but those manifestly
included within more general applications of the core
constitutional principle involved.” Owens, 372 F.3d
at 279 (internal quotation marks omitted).
Accordingly, government officials can violate clearly

App. 76
established law even under “novel factual
circumstances, so long as the law provided fair
warning that their conduct was wrongful.”
Williamson v. Stirling, 912 F.3d 154, 187 (4th Cir.
2018). As the Fourth Circuit recently observed,
although we must avoid ambushing
government officials with liability for goodfaith mistakes made at the unsettled
peripheries of the law, we need not—and
should not—assume that government
officials are incapable of drawing logical
inferences, reasoning by analogy, or
exercising common sense. In some cases,
government officials can be expected to
know that if X is illegal, then Y is also
illegal, despite factual differences between
the two.
Williams v. Strickland, No. 18-6219, 2019 WL
1030673, at *4 (4th Cir. Mar. 5, 2019).
The specific question before the court is
whether a reasonable officer in McKinney’s position
would have believed that driving a police vehicle in
excess of 80 mph on a curved section of a dark road
at night even though he was not responding to an
emergency or pursuing a fleeing suspect was
permissible under established legal standards. The
court concludes that a reasonable officer in
McKinney’s position would have known in October
2016 that such conduct could give rise to a claim
under the Fourteenth Amendment.

App. 77
Although the Fourth Circuit has not
adjudicated the lawfulness of the precise conduct in
question,5 Janel’s substantive due process rights fell
within the ambit of clearly established “general
applications of the core constitutional principles
invoked.” Stirling, 912 F.3d at 187. Although Lewis
technically considered the culpability standard
applicable to an officer’s high-speed pursuit of an
actively- fleeing suspect, Lewis also made clear that
in cases where officers are not actively pursuing a
suspect or responding to emergency circumstances
requiring a split- second decision, an officer may face
liability for less than intentional conduct—i.e., where
“deliberation is practical,” liability based on a
“deliberate indifference” standard is appropriate. See
Lewis, 523 U.S. at 851.
Prior to October 2016, a few circuit courts of
appeal had embraced the position that Lewis’s
intent-to-harm standard does not apply to an officer’s
operation of his vehicle at excessive speeds where he
is not responding to an emergency or chasing an
The court is aware of the Fourth Circuit’s pre-Lewis
decision in Temkin v. Frederick County Commissioners, 945
F.2d 716 (4th Cir. 1991). Temkin involved a substantive due
process claim brought by a driver who was struck by a suspect
fleeing an officer in active pursuit at high speeds. Id. at 718.
Unlike the case currently before this court, Temkin presented
precisely the kind of fact pattern that under Lewis does not
easily rise to a conscience-shocking level—an officer actively
pursuing a fleeing suspect. See 523 U.S. at 855. The instant
case is nothing like Temkin, as it presents neither an
emergency nor the pursuit of a fleeing criminal suspect.
5

App. 78
escaping suspect For example, the Tenth Circuit
concluded that the conduct of an officer traveling at a
high rate of speed even though he was not “actually
in pursuit” of anyone or responding to an emergency
should be assessed under a deliberate indifference
standard. See Green, 574 F.3d at 1302-03. The Tenth
Circuit reiterated its position in Browder, where an
off-duty officer was sued when he finished his shift
but used his lights and drove at high speed on
personal business, ultimately causing a fatal traffic
accident. See 787 F.3d at 1077 (Gorsuch, J.). Browder
concluded that proof of intent-to-harm is not
required in cases where an officer “isn’t pursuing any
emergency or any official business at all” and “no one
has called for his aid.” Id. at 1081. Significantly,
Browder noted that “as of 2006, it was clearly
established a police officer could be liable under the
Fourteenth Amendment for driving in a manner that
exhibits
a
conscience-shocking
deliberate
indifference to the lives of those around him.” Id. at
1083 (internal quotation marks omitted). And, the
Third Circuit also applied a culpability standard that
is less than intent-to-harm in non-emergency cases,
stating that it has “been clear in recent years that
the level of culpability required to shock the
conscience when an officer has time for hurried
deliberation is a conscious disregard of a great risk of
serious harm.” Sauers, 905 F.3d at 717 n.6 (citing
Sanford v. Stiles, 456 F.3d 298 (3d Cir. 2006)).
In this case, the fact that there is relatively
scant caselaw imposing liability in these specific
circumstances does not deprive officers of “fair

App. 79
warning that their conduct . . . was wrongful.”
Williamson, 912 F.3d at 187 (internal quotation
marks omitted). Indeed, “some things are so
obviously unlawful that they don’t require detailed
explanation and sometimes the most obviously
unlawful things happen so rarely that a case on point
is itself an unusual thing.” Browder, 787 F.3d 1076,
1082 (10th Cir. 2015). The court concludes, therefore,
that in October 2016, it was clearly established that
an officer driving more than 80 mph at night, on a
curved section of an unlit road, in a non-emergency,
non-pursuit situation could be subject to liability
under the Fourteenth Amendment for deliberate
indifference to a substantial risk of harm to those
around him. A reasonable officer in McKinney’s
position would have realized such conduct was
unlawful. Thus, McKinney is not entitled to qualified
immunity.
V. Conclusion
For the foregoing reasons, the court concludes
that the evidence, viewed in a light most favorable to
Plaintiff, is sufficient for a reasonable jury to
conclude
that
McKinney
abridged
Janel’s
substantive due process rights under the Fourteenth
Amendment. The court further concludes that
McKinney is not entitled to qualified immunity as to
Plaintiff’s
substantive
due
process
claim.
Accordingly, the court DENIES McKinney’s motion
for summary judgment (ECF No. 21) as to that claim.
IT IS SO ORDERED.

App. 80

s/Timothy M. Cain
United States District Judge
March 14, 2019
Anderson, South Carolina

